<html>
<title> - ASSESSING THE SECURITY OF OUR CRITICAL TRANSPORTATION INFRASTRUCTURE</title>
<body><pre>[Senate Hearing 114-582]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 114-582
 
  ASSESSING THE SECURITY OF OUR CRITICAL TRANSPORTATION INFRASTRUCTURE

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON SURFACE TRANSPORTATION
                  AND MERCHANT MARINE INFRASTRUCTURE,
                          SAFETY AND SECURITY

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            DECEMBER 7, 2016

                               __________

    Printed for the use of the Committee on Commerce, Science, and Transportation
    
    
    
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  





                     U.S. GOVERNMENT PUBLISHING OFFICE
                   
 24-732 PDF                 WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001   
    
    
                             


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                   JOHN THUNE, South Dakota, Chairman
ROGER F. WICKER, Mississippi         BILL NELSON, Florida, Ranking
ROY BLUNT, Missouri                  MARIA CANTWELL, Washington
MARCO RUBIO, Florida                 CLAIRE McCASKILL, Missouri
KELLY AYOTTE, New Hampshire          AMY KLOBUCHAR, Minnesota
TED CRUZ, Texas                      RICHARD BLUMENTHAL, Connecticut
DEB FISCHER, Nebraska                BRIAN SCHATZ, Hawaii
JERRY MORAN, Kansas                  EDWARD MARKEY, Massachusetts
DAN SULLIVAN, Alaska                 CORY BOOKER, New Jersey
RON JOHNSON, Wisconsin               TOM UDALL, New Mexico
DEAN HELLER, Nevada                  JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               GARY PETERS, Michigan
STEVE DAINES, Montana
                       Nick Rossi, Staff Director
                  Adrian Arnakis Deputy Staff Director
                    Jason Van Beek, General Counsel
                 Kim Lipsky, Democratic Staff Director
              Chris Day, Democratic Deputy Staff Director
       Clint Odom, Democratic General Counsel and Policy Director
                                 ------                                

      SUBCOMMITTEE ON SURFACE TRANSPORTATION AND MERCHANT MARINE 
                  INFRASTRUCTURE, SAFETY AND SECURITY

DEB FISCHER, Nebraska, Chairman      CORY BOOKER, New Jersey, Ranking
ROGER F. WICKER, Mississippi         MARIA CANTWELL, Washington
ROY BLUNT, Missouri                  CLAIRE McCASKILL, Missouri
KELLY AYOTTE, New Hampshire          AMY KLOBUCHAR, Minnesota
JERRY MORAN, Kansas                  RICHARD BLUMENTHAL, Connecticut
DAN SULLIVAN, Alaska                 BRIAN SCHATZ, Hawaii
RON JOHNSON, Wisconsin               EDWARD MARKEY, Massachusetts
DEAN HELLER, Nevada                  TOM UDALL, New Mexico
STEVE DAINES, Montana

                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on December 7, 2016.................................     1
Statement of Senator Fischer.....................................     1
Statement of Senator Booker......................................     2
Statement of Senator Nelson......................................     5
    Prepared statement...........................................     5
Statement of Senator Blumenthal..................................    32
Statement of Senator Klobuchar...................................    34

                               Witnesses

Hon. John Roth, Inspector General, U.S. Department of Homeland 
  Security.......................................................     6
    Prepared statement...........................................     8
Neil Trugman, Interim Chief of Police, Amtrak....................    12
    Prepared statement...........................................    13
Chris Spear, President and CEO, American Trucking Association 
  (ATA)..........................................................    14
    Prepared statement...........................................    16
Anthony Straquadine, Jr., Manager, Commercial, Government Affairs 
  and Managing U.S. Officer, Alliance Pipeline Inc...............    20
    Prepared statement...........................................    22
Tom Belfiore, Chief Security Officer, Port Authority of New York 
  and New Jersey.................................................    24
    Prepared statement...........................................    26

                                Appendix

Response to written questions submitted to Hon. John Roth by:
    Hon. John Thune..............................................    45
    Hon. Deb Fischer.............................................    45
    Hon. Cory Booker.............................................    46
Response to written questions submitted to Neil Trugman by:
    Hon. John Thune..............................................    46
    Hon. Deb Fischer.............................................    47
    Hon. Cory Booker.............................................    48
Response to written questions submitted to Chris Spear by:
    Hon. John Thune..............................................    48
    Hon. Deb Fischer.............................................    48
    Hon. Cory Booker.............................................    50
Response to written questions submitted to Anthony Straquadine, 
  Jr. by:
    Hon. John Thune..............................................    52
    Hon. Deb Fischer.............................................    52
    Hon. Cory Booker.............................................    54
Response to written questions submitted to Tom Belfiore by:
    Hon. Deb Fischer.............................................    55
    Hon. Cory Booker.............................................    56


  ASSESSING THE SECURITY OF OUR CRITICAL TRANSPORTATION INFRASTRUCTURE

                              ----------                              


                      WEDNESDAY, DECEMBER 7, 2016

                               U.S. Senate,
         Subcommittee on Surface Transportation and
           Merchant Marine Infrastructure, Safety, and Security,   
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:40 p.m. in 
room SR-253, Senate Russell Office Building, Hon. Deb Fischer, 
Chairman of the Subcommittee, presiding.
    Present: Senators Fischer [presiding], Booker, Nelson, 
McCaskill, Klobuchar, and Blumenthal.

            OPENING STATEMENT OF HON. DEB FISCHER, 
                   U.S. SENATOR FROM NEBRASKA

    Senator Fischer. Good afternoon. I am pleased to convene 
the Senate Subcommittee on Surface Transportation and Merchant 
Marine Infrastructure, Safety, and Security, for our last 
subcommittee hearing of 2016 titled ``Assessing the Security of 
Our Critical Transportation Infrastructure.''
    Securing our Nation's transportation system is critical to 
keeping Americans safe. Over the past year, we've seen an 
increasing threat of terrorism to vital surface transportation 
networks. On September 17, a bomb exploded in New York City's 
Chelsea neighborhood injuring 31 people. Two days later, police 
in Elizabeth, New Jersey, removed from a public trash can a 
backpack filled with pipe bombs. The devices were discovered 
near the town's train station. Fortunately, no one was killed 
in either bombing.
    But earlier this year, in Nice, France, a member of ISIL 
drove a commercial truck into a crowded promenade, killing 84 
people. And in March, 16 individuals were killed in a bomb 
blast at a metro station in Brussels. These tragic events 
underscore a dangerous reality. Our surface transportation, 
rail, ports, pipelines, and mass transit systems are at serious 
risk of attack.
    Unlike TSA aviation security checkpoints at our airports, 
TSA does not directly manage surface transportation security. 
Instead, TSA is responsible for providing guidance, oversight, 
intelligence, and assistance to system operators and law 
enforcement so that they can ensure security across our 
Nation's surface transportation network.
    However, recent reports by the Office of the Inspector 
General of the Department of Homeland Security have questioned 
the TSA's management of our Nation's surface transportation 
security programs and resources. A September 2016 IG report 
found that oversight of a critical TSA port access program, 
otherwise known as TWIC, had inadequate oversight. TWIC impacts 
nearly 3.5 million port and freight workers. The IG's office 
found that the program's fraud detection techniques were not 
monitored, and key internal controls were missing from the 
terrorism vetting process.
    A second, even more alarming IG report from September found 
that TSA lacks an intelligence-driven, risk-based security 
strategy that informs security and resource decisions across 
all transportation modes, beyond aviation. The report further 
noted that TSA lacks a formal process to incorporate risk in 
budget formulation decisions. The TSA's annual budget is 
approximately $7.3 billion.
    When TSA Administrator Peter Neffenger testified earlier 
this year before this committee, he pointed out that TSA spends 
just 3 percent of its budget on surface transportation security 
initiatives. This fact may come as a surprise to most 
Americans. Congress must evaluate the adequacy of these 
resources and demand that they be spent based on the threat 
risk to our transportation network. It's clear that our ports, 
highways, pipelines, and railways are at risk. Today's hearing 
convenes a panel of multimodal stakeholders and experts to 
discuss how we can enhance the security of our transportation 
system and ensure that the TSA is effective.
    This fall, Chairman Thune, Ranking Member Nelson, Senator 
Booker, and I introduced the bipartisan Surface Transportation 
and Maritime Security Act to address these concerns. This 
comprehensive bill would instruct the TSA to establish risk-
based budgeting, expand the highly effective K-9 explosive 
detection teams for surface transportation, and authorize 
computer vetting systems for passenger networks. Among other 
provisions, this important legislation would address management 
inefficiencies raised by the Inspector General as it relates to 
the TWIC program.
    In May 2015, the Senate Commerce Committee passed the 
Essential Worker Identification Credential Assessment Act, 
which compels the TSA to fully assess the TWIC program and work 
with the Inspector General to resolve vetting, oversight, and 
other major security loopholes.
    I am pleased to convene this hearing with the Inspector 
General of the Department of Homeland Security and leading 
experts from the pipeline, trucking, and passenger rail 
sectors. I look forward to learning more about how you advance 
all aspects of security in your daily operations and how we can 
work together to strengthen our transportation security.
    I would now like to invite my colleague and this 
subcommittee's Ranking Member, Senator Cory Booker, to offer 
any opening remarks.
    Senator Booker?

                STATEMENT OF HON. CORY BOOKER, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Booker. Thank you so much, Chairwoman Fischer, for 
holding yet another very important hearing on surface 
transportation, in general, surface transportation security, in 
particular. I really look forward to hearing from all the 
witnesses.
    The focus of this hearing is clearly on transportation 
security. But I just want to take a moment to speak about 
transportation safety. The Senate is now considering a CR, 
which, among other provisions, includes a dangerous rollback in 
truck safety that will have the effect of allowing truck 
drivers to work more hours and get less rest. Some colleagues 
and I have fought this battle time and time again, but it 
continues to remain an uphill battle.
    The data is chilling. Now, there are 4,000 people who lose 
their lives to large truck accidents each year, and over 
100,000 people are injured. It is paramount that Congress works 
together in a deliberative way, having a discussion on what is 
one of the monumental areas in which people are dying in 
America. The numbers we're talking about represent a plane 
crash each week in America. That's how many people are dying, 
and the situation is not getting better. It's actually getting 
worse. There's a 4.4 percent increase in accidents from 2014 to 
2015.
    We have a lot of good minds on this, from industry to 
activists to Senators on both sides of the aisle. We should be 
discussing this issue in the regular course of business, not 
flipping into a CR a rollback of these restrictions. It may be 
business as usual in the U.S. Senate, but it's something I just 
cannot accept or at least let go by quietly.
    I spent time with the victims of these accidents, the 
tragedy that is being visited upon family after family, day 
after day, and it irks me that this is something that we can 
prevent, working together. I'm shocked and saddened that the 
data has not compelled more action on this issue.
    The threat of a security challenge or a terrorist attack is 
real, and while I'm pleased that we're discussing those issues 
today, I hope we will double down on our commitment to explore 
basic road safety issues in the upcoming year and find ways to 
make our highways safer for all Americans. We can coexist. We 
can make sure business is done and families are safe.
    Now, when it comes to security threats as a whole, New 
Jersey is often a prime target, given the density of our 
location. Over the course of a weekend this past September, as 
the Chairwoman noted, a series of attacks occurred in my home 
state and the surrounding region. In Seaside Park, New Jersey, 
an improvised device exploded in a garbage can near the course 
of a charity race. It could have been devastating and, 
fortunately, was not.
    In Manhattan, just 12 miles from where I live, an explosion 
injured 30 people on a crowded sidewalk in Chelsea. Finally, a 
bag of explosives were found near a train station in Elizabeth, 
New Jersey, just about a mile from where I live.
    These planned attacks are a stark reminder of how quickly 
our relative peace can be shattered and how we must ensure that 
we are adapting to new threats. This is particularly true for 
our surface transportation systems, where transit and passenger 
rail move millions of people every single day.
    The 9/11 Commission, chaired by former New Jersey Governor 
Tom Kean, recognized this challenge and identified that 
terrorists may turn their attention from air to rail and 
transit stations as targets. Unfortunately, nearly a decade 
after we passed the implementation of recommendations of the 9/
11 Commission Act, we are still, still waiting on TSA to 
complete many of the recommendations. That is unacceptable.
    And it's not just rail and transit. The Commission also 
highlighted the need to secure the major ports, pipelines, 
bridges, and tunnels. With thousands of containers moving in 
and out of the port area in which I live and many millions of 
Americans do, hazardous materials moving through our pipelines, 
and cargo moving on trucks and rails across the country, the 
transportation network is vast and open. There is a serious 
security challenge.
    The transportation industry is a backbone of our economy. A 
catastrophic failure of our transportation system could have 
serious economic consequences, not to mention the tragic loss 
of life, with terrorists focused on these soft targets.
    For example, the Hudson River Tunnel, which connects 
northern New Jersey to midtown Manhattan, carries approximately 
200,000 passengers every day. It is a vital economic artery for 
the region and a critical evacuation route for Manhattan in the 
event of a terrorist attack. I remember what happened after 9/
11 just trying to get people out of Manhattan and first 
responders in.
    Because the tunnel lacks redundancy, a terrorist attack in 
the tunnel would be catastrophic and would have long-term 
economic consequences for the Nation. We know the billions of 
dollars of economic loss just when New Jersey transit or 
Northeast Corridor rail systems are shut down. Bi-state efforts 
are currently underway to advance the Gateway Program, which 
would add a critical layer of redundancy across the busiest 
river crossing in the United States of America. I'm hopeful 
that we will take the necessary action to realize the security 
and mobility benefits that a new tunnel would offer.
    In addition, we must continue to find new ways to adapt and 
meet the ever-challenging threats to our transportation system. 
That's why I've joined with Chairman Thune, Ranking Member 
Nelson, and Senator Fischer to introduce the Surface 
Transportation and Maritime Security Act, another example of 
our bipartisan efforts to make America safer. This bill will 
take steps to close the gap in our security and provide 
additional resources to enhance security across our 
transportation system.
    Again, I look forward to hearing from the witnesses today. 
I'm grateful that Chief Belfiore is here as well, in 
particular. We have a lot of work to do. We can do more, and we 
must do more to meet the threats that are facing our nation's 
surface transportation.
    Thank you very much.
    Senator Fischer. Thank you, Senator Booker.
    I would just like to say it has been a pleasure to serve on 
this committee with Senator Booker. In the last two years, we 
have accomplished quite a bit. We've worked together in that 
bipartisan manner, looking for issues that we can agree upon 
that are really going to help the people of this country.
    And it has been a pleasure, sir, to work with you.
    I think we've had about 16 hearings over 2 years, either 
here in Washington or outside of Washington around this 
country, and Senator Booker has been a wonderful partner on 
every single issue that we've worked on.
    At this time, I would like to introduce the panel one by 
one and have you give your statements before the Committee. 
We'll begin with the Honorable John Roth, who is the Inspector 
General of the United States Department of Homeland Security.
    Welcome, sir.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Madam Chairman, may I enter an opening 
statement?
    Senator Fischer. Oh, I apologize, Ranking Member Nelson. I 
did not see you come in. Please give us your opening statement.
    Senator Nelson. I'll just enter the opening statement in 
the record.
    [The prepared statement of Senator Nelson follows:]

   Prepared Statement of Hon. Bill Nelson, U.S. Senator from Florida
    I want to thank Chairman Fischer and Ranking Member Booker for 
calling this hearing about protecting our Nation's surface 
transportation networks from terrorist attacks.
    A series of attacks over the last year or so--from attacks in 
France and Belgium to those right here in the U.S.--have rung the alarm 
bell that we cannot be complacent.
    Transportation remains an attractive target for terrorists.
    This Committee has heard that call. Last year, the Committee took 
an important step to improve aviation security by moving the Airport 
Security Enhancement and Oversight Act of 2015.
    This bill took common sense steps to prevent an insider threat to 
our aviation system by improving the background checks for aviation 
workers. It also increased random physical screenings and covert, red-
team testing.
    And while these steps were essential, the threat is ever changing.
    I am concerned that our current strategy does not sufficiently 
address the vulnerabilities exposed in Brussels and in the pipe bomb 
attacks in New York and New Jersey.
    Those incidents highlighted the vulnerability of our surface 
transportation networks.
    That is why I worked with Chairman Thune and Senators Fischer and 
Booker to introduce the Surface Transportation and Maritime Security 
Act.
    The legislation addresses deficiencies in TSA's efforts to secure 
our rail, transit, highway, port and freight transportation systems.
    It also responds to recent concerns raised by the Department of 
Homeland Security Inspector General.
    The Inspector General found that TSA has yet to complete several 
important and overdue requirement from the recommendations of the 9/11 
Commission which were enacted into law in 2007.
    For example, it's been 8 years, and TSA has yet to develop rules to 
ensure that surface transportation workers have sufficient security 
training, or that railroads have clear standards for their security 
plans.
    In addition, the Inspector General identified serious gaps in TSA's 
program to provide credentials for workers accessing secure areas of 
ports.
    Fifteen years after TSA first established its Transportation Worker 
Identification Credential program, the agency still struggles to 
prevent fraud in the vetting of workers.
    This legislation addresses deficiencies identified by the Inspector 
General and requires TSA to make changes.
    Importantly, the legislation also takes steps to respond to the 
recent pipe bomb attacks by immediately adding 70 additional canine 
teams.
    It also gives TSA the ability to add up to 200 teams over time.
    Canine teams provide a power psychological and physical deterrent 
to potential threats.
    They also have an unparalleled ability to identify detect 
explosives.
    I believe it's time to reexamine our transportation security 
strategy and refocus our efforts, and this legislation helps us get 
there.
    I want to thank the witnesses for coming today and I look forward 
to hearing from you on these issues.

    Senator Fischer. And we are pleased to welcome you to the 
Committee hearing today.
    Senator Nelson. Yes, ma'am.
    Mr. Roth?

        STATEMENT OF HON. JOHN ROTH, INSPECTOR GENERAL, 
              U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Roth. Chairwoman Fischer, Ranking Member Booker, and 
members of the Subcommittee, thank you for inviting me here to 
testify today.
    TSA has a broad responsibility to oversee and regulate 
surface transportation: highway, freight and passenger rail, 
mass transit, and pipelines, as well as port security. However, 
TSA's budget allocates most of its resources to air passenger 
screening and dedicates only a small portion, roughly about 2 
percent, to vulnerable areas of surface transportation.
    Recently, our office has published three reports that 
identify significant weaknesses in TSA's ability to secure 
surface transportation in the Nation's maritime facilities and 
vessels. First, we issued a report that found that TSA does not 
have an intelligence-driven, risk-based security strategy to 
inform security and budget needs across all types of 
transportation.
    In 2011, TSA began publicizing that it uses an 
intelligence-driven, risk-based approach across all 
transportation modes. However, in fact, TSA incorporates a 
risk-based approach only in aviation and really only at the 
checkpoint. Additionally, they do not have a budget process 
that would incorporate risk into its budget decisions or 
resource allocations.
    TSA is working to create a consolidated risk-based security 
strategy across all transportation modes. However, 
notwithstanding the fact that they've been working on this for 
a considerable amount of time, they do not intend to provide us 
with a risk-based security strategy until the last quarter of 
2017.
    The second report that we issued found that TSA has failed 
to develop and implement regulations governing passenger rail 
security required more than 9 years ago. Specifically, although 
required to by the implementing recommendations of the 9/11 
Commission Act of 2007, TSA neither identified high-risk 
carriers nor issued regulations requiring those carriers to 
conduct vulnerability assessment and implement DHS-approved 
security plans.
    TSA also did not issue regulations that would require a 
railroad security training program. Further, unlike aviation 
and maritime port workers, TSA has not developed regulations 
requiring security background checks for rail workers. TSA has 
just submitted a Notice of Proposed Rulemaking on one rule to 
the Federal Register. However, they won't even commit to a 
timeline as to when they will move the other two regulations 
forward.
    The third report we issued found that TSA is missing key 
internal controls in the Transportation Worker Identification 
Credential Program, known by its acronym, TWIC. The background 
check for TWIC includes a check for immigration, criminal, and 
terrorist-related offenses that would preclude someone from 
being granted unescorted access to secure facilities at 
seaports. Our review found that TSA did not adequately 
integrate the security measures intended to identify fraudulent 
applications into the background check process. This was the 
case, notwithstanding the fact, that a Government 
Accountability report found the same problems 5 years ago.
    We determined that TSA's lack of oversight was the primary 
reason that the TWIC background check process had so many 
control weaknesses. At the time of our review, the TWIC 
background check process was divided among multiple program 
offices, so no single entity had complete oversight and 
authority over the program. Furthermore, the lead program 
office for the program lacked key metrics to measure TSA's 
success in achieving TWIC program core objectives.
    Many of the issues I've discussed today are addressed in S. 
3379, the Surface Transportation and Maritime Security Act. We 
believe that, if enacted, this legislation will direct numerous 
improvements to our Nation's security. However, I must 
emphasize that the Department and TSA have demonstrated over 
time, a pattern of being dismissive and lax on implementing 
requirements related to non-aviation security. Under these 
circumstances, change will require significant oversight by 
Congress, by my office, and the Controller General to ensure 
that TSA and the Department take timely actions to implement 
these improvements.
    Madam Chairman, this concludes my testimony. I would 
welcome any questions you or other members of the Committee may 
have.
    [The prepared statement of Mr. Roth follows:]

                           DHS OIG Highlights

     Assessing the Security of our Critical Surface Transportation 
                             Infrastructure

Why We Did This
    The audits discussed in this testimony are part of our ongoing 
oversight of the Transportation Security Administration (TSA). Our 
reviews are designed to ensure efficiency and effectiveness of TSA 
operations in order to fulfill both aviation and non-aviation-related 
missions.
What We Recommend
    We made numerous recommendations to TSA in our audit reports 
discussed in this testimony.
What We Found
    TSA has many responsibilities in addition to providing security for 
our Nation's aviation passengers--including highway, freight and 
passenger rail, mass transit, port security, and pipelines. However, 
TSA has not considered these areas a priority, thus exposing the 
traveling public and sensitive infrastructure to additional risk. This 
testimony highlights several recent audits of TSA's non-aviation 
security-related missions. Our findings include:

  <bullet> TSA lacks an intelligence-driven, risk-based security 
        strategy that informs security and resource decisions across 
        all modes of transportation.

  <bullet> TSA has not fully implemented internal controls that 
        strengthen the reliability of port worker background checks.

  <bullet> TSA has not implemented regulations governing passenger rail 
        security, established a rail training program, nor conducted 
        security background checks of frontline rail employees.

  <bullet> We believe that the Surface Transportation and Maritime 
        Security Act, if enacted, will assist in addressing a number of 
        the challenges facing the Department and direct TSA to correct 
        significant deficiencies in its programs and operations.
Agency Comments
    We issued 10 recommendations that TSA concurred with and, in most 
cases, has begun implementing corrective actions.
                                 ______
                                 
       Prepared Statement of Hon. John Roth, Inspector General, 
                  U.S. Department of Homeland Security
    Chairman Fischer, Ranking Member Booker, and members of the 
Subcommittee, thank you for inviting me to testify at today's hearing 
regarding the security of our surface transportation infrastructure.
    When the American public thinks of TSA, they think of the 
Transportation Security Officer in a blue shirt instructing them to 
remove their belts and shoes before going through security screening at 
the airport. The truth is that TSA has a much broader responsibility to 
also oversee and regulate our Nation's surface transportation modes--
highway, freight and passenger rail, mass transit, and pipelines--and 
port security, to ensure the freedom of movement for people and 
commerce. However, TSA's budget reflects the public perception of its 
mission, allocating most of its resources to air passenger screening 
and dedicating only a small portion to the vulnerable areas of non-
aviation.
    Recently, the OIG has published three reports \1\ that identify 
significant weaknesses in TSA's ability to secure surface 
transportation modes and the Nation's maritime facilities and vessels. 
Specifically, we identified issues with TSA's ability to identify risk 
across all modes of transportation, the reliability of background 
checks for port workers, and passenger rail security.
---------------------------------------------------------------------------
    \1\ TSA Oversight of National Passenger Rail System Security (OIG-
16-91); TWIC Background Checks are Not as Reliable as They Could Be 
(OIG-16-128); and Transportation Security Administration Needs a 
Crosscutting Risk-Based Security Strategy (OIG-16-134).
---------------------------------------------------------------------------
TSA Needs a Crosscutting Risk-Based Security Strategy
    TSA has many responsibilities beyond air travel, and is 
responsible, generally through the use of regulation and oversight, for 
surface transportation security. However, TSA focuses primarily on air 
transportation security and largely ignores other modes. We found that 
TSA does not have an intelligence-driven, risk-based security strategy 
to inform security and budget needs across all types of transportation. 
In 2011, TSA began publicizing that it uses an ``intelligence-driven, 
risk-based approach'' across all transportation modes. However, we 
found this not to be true. In an audit we released this past September, 
we reported that TSA specifically designed this approach to replace its 
one-size-fits-all approach to air passenger screening but did not apply 
it to other transportation modes. Additionally, TSA's agency-wide risk 
management organizations provide little oversight of TSA's surface 
transportation security programs. TSA established an Executive Risk 
Steering Committee which was intended to create a crosscutting, risk-
based strategy, which would drive resource allocations across all 
modes. However, neither it, nor any of these entities place much 
emphasis on non-air transportation modes.
    We also found that TSA lacked a formal process to incorporate risk 
into its budget formulation decisions. Despite the disparate 
requirements on the agency, TSA dedicated 80 percent of its nearly $7.4 
billion FY 2015 budget to direct aviation security expenditures, and 
only about 2 percent to direct surface transportation expenditures. Its 
remaining resources were spent on support and intelligence functions. A 
formal process that incorporates risk into its budget formulation would 
help TSA ensure it best determines and prioritizes the resources 
necessary to fulfill its missions.
    TSA concurred with our recommendations, and is working to create a 
consolidated risk-based security strategy for aviation and surface 
transportation modes. It also noted that efforts were made to improve 
the budget process by conducting a series of crosscutting program 
reviews and developing resource planning guidance. However, 
notwithstanding that they have been working on this for a considerable 
amount of time, TSA does not intend to provide us with its risk-based 
security strategy until the last quarter of 2017. We also do not yet 
have their formal budget planning process that uses risk to inform 
resource allocations.
TSA Missing Key Controls within the TWIC Background Check Process
    TSA--responsible for safeguarding our Nation's ports and maritime 
facilities through the Transportation Worker Identification Credential 
(TWIC) program--lacks key internal controls and this compromises the 
TWIC program's reliability. These weaknesses leave our Nation's 
seaports at risk for terrorist exploitation, smuggling, insider 
threats, and internal conspiracies.
    TSA provides background checks, or security threat assessments, for 
individuals who need unescorted access to secure port facilities; and 
issues a biometric identification card, also known as a TWIC. The 
background check process for TWICs is the same as that of aviation 
workers \2\ and drivers who need a Hazmat Materials Endorsement.\3\ It 
includes a check for immigration-, criminal-, and terrorism-related 
offenses that would preclude someone from being granted unescorted 
access to secure facilities at seaports.
---------------------------------------------------------------------------
    \2\ TSA Can Improve Aviation Worker Vetting (OIG-15-98)
    \3\ Commercial drivers required to transport hazardous materials 
must undergo a background check by TSA prior to receiving a hazardous 
material endorsement on their Commercial Driver's License.
---------------------------------------------------------------------------
    The Government Accountability Office (GAO) also reviewed the TWIC 
program five years ago. In 2011, GAO identified key internal control 
weaknesses in TSA's management of the TWIC background check process and 
recommended the Department take significant steps to improve the 
effectiveness of the program as a whole. Although TSA took some steps 
to address GAO's concerns, our review--five years later--found that TSA 
did not adequately integrate the security measures intended to identify 
fraudulent applications into the background check process.
    For example, TSA required enrollment staff to use a digital scanner 
that could evaluate security features present on identification 
documents and generate a score to help TSA determine if the document 
was authentic. However, TSA did not collect or use these scores when 
completing its background checks--nullifying the effectiveness of this 
security measure. For those documents that could not be electronically 
scanned, TSA required the staff at the enrollment centers to manually 
review identity documents. However, TSA did not require that the staff 
be trained at detecting fraudulent documents. When the enrollment staff 
documented their observations of suspicious identity documents in TSA's 
system, TSA did not have a standardized process for collecting, 
reviewing, or using the notes when completing the background checks.
    We determined TSA management's lack of oversight was the primary 
reason the TWIC background check process had many control weaknesses. 
At the time of our review, the TWIC background check process was 
divided among multiple program offices so that no single entity had 
complete oversight and authority over the program. Furthermore, the 
lead program office for the program lacked key metrics to measure TSA's 
success in achieving TWIC program core objectives. For example, the 
measures in place focused on customer service, such as enrollment time 
and help desk response time, rather than on areas like accuracy of the 
background check itself. Since our review, TSA told us it realigned the 
divisions responsible for the TWIC background check process in an 
effort to provide better oversight and guidance and has begun making 
improvement to strengthen the controls surrounding the background check 
process. However, we have not validated the TSA's actions, so we do not 
know whether this has improved the program's functionality.
TSA Delays Implementing Passenger Rail Security Regulations
    TSA has failed to develop and implement regulations governing 
passenger rail security required more than nine years ago by the 
Implementing Recommendations of the 9/11 Commission Act of 2007 (9/11 
Act).\4\ Unlike the security presence that TSA provides air passengers 
in airports, its responsibility for rail passengers rests in assessing 
intelligence, sharing threat information with industry stakeholders, 
developing industry best practices, and enforcing regulations. This is 
particularly important due to the volume of passengers using this mode 
of transportation and the unique challenges in the rail environment.
---------------------------------------------------------------------------
    \4\ Public Law 110-53.
---------------------------------------------------------------------------
    In Fiscal Year 2015 alone, Amtrak carried 31 million passengers 
across the continental United States and Canada, and operated more than 
300 trains daily. Additionally, Amtrak and other passenger rail 
carriers operate in an open infrastructure with multiple access points 
that make it impractical to subject all rail passengers to the type of 
security screening that passengers undergo at airports. Notwithstanding 
this, there were actions that TSA could have taken, but did not, that 
would have strengthened rail security. Specifically, although required 
to by the 9/11 Act, TSA neither identified high-risk carriers nor 
issued regulations requiring those carriers to conduct vulnerability 
assessments and implement DHS-approved security plans. TSA also did not 
issue regulations that would require a railroad security training 
program and security background checks for frontline employees. 
Regulations to implement a training program are important to ensure 
rail carriers have a mechanism in place to prepare rail employees for 
potential security threats.
    Furthermore, unlike aviation and maritime port workers, TSA did not 
develop regulations requiring security background checks for rail 
workers. TSA vets airport and maritime port workers who need unescorted 
access to secure areas against the terrorist watchlist and immigration 
status and criminal history information, and these processes are 
consistent with the requirements in the 9/11 Act.
    These very issues were identified in 2009 by GAO, which reported 
that TSA had only completed one of the key passenger rail requirements 
from the 9/11 Act. Seven years later, we identified that the same rail 
requirements--a regulation for rail carriers to complete security 
assessments, a regulation for rail security training, and a program for 
conducting background checks on rail employees--remain incomplete.
    Following the 2004 terrorist attack on a passenger train in Madrid, 
Spain, TSA issued a security directive for Amtrak. That directive 
required carriers to improve security procedures by designating a rail 
security coordinator, reporting significant security concerns to TSA, 
and allowing TSA to conduct inspections for any potential security 
threats. TSA does conduct some limited inspections to verify carrier 
compliance with these requirements. However, TSA does not enforce other 
aspects of the security directive, such as the use of bomb-resistant 
trash receptacles, canine teams, rail car inspections, and passenger 
identification checks to enhance security and deter terrorist attacks. 
Instead, TSA relies on Amtrak and other transit entities to implement 
security measures if resources permit, and is even considering 
rescinding these minimal requirements from the directive. Without 
enforcing all security requirements, TSA diminishes the directives 
importance and carriers ability to prevent or deter acts of terrorism.
    In the absence of issuing formal regulations to implement the 9/11 
Act requirements, TSA has developed and implemented a variety of 
outreach programs and voluntary initiatives to strengthen rail security 
for Amtrak. However, Amtrak is not required to participate or implement 
TSA's recommended security measures because the initiatives are 
voluntary. TSA's reliance on voluntary initiatives has created an 
environment of reduced urgency to implement regulations governing 
passenger rail security; to establish a rail training program; and to 
conduct security background checks of frontline rail employees. If TSA 
does not fulfill these requirements, it cannot ensure that passenger 
rail carriers will implement security measures that may prevent or 
deter acts of terrorism.
Pending Legislation
    Many of the issues I've discussed today are addressed in the 
Surface Transportation and Maritime Security Act. I want to thank the 
Committee for introducing legislation to address a number of the 
challenges facing the Department. We believe that if enacted, this 
legislation will direct numerous improvements to our Nation's security. 
However, I must emphasize that the Department and TSA have demonstrated 
a pattern of being dismissive and lax on implementing requirements 
related to non-aviation security, as illustrated in the attached 
appendix. Under these circumstances, change will require significant 
attention by Congress, the Inspector General, and the Comptroller 
General to ensure that TSA and the Department take timely actions to 
implement these improvements.
Future work
    We will continue to audit and evaluate the Department's aviation 
and non-aviation-related programs and report our results. Currently, we 
are reviewing the effectiveness of TSA checkpoint screening, Federal 
Air Marshal oversight of civil aviation, the TSA PreCheck enrollment 
process, the TSA's Office of Intelligence and Analysis, and TSA's use 
of the Sensitive Security Information designation. We are planning a 
review of passenger security for cruise ships.
    Madame Chairman, this concludes my testimony. I welcome any 
questions you or any other members of the Subcommittee may have.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Senator Fischer. Thank you very much.
    Next, we have Chief Neil Trugman, who is the Interim Chief 
of Police at Amtrak.
    Welcome.

   STATEMENT OF NEIL TRUGMAN, INTERIM CHIEF OF POLICE, AMTRAK

    Mr. Trugman. Good afternoon, Madam Chair, Senator Booker, 
and members of the Committee. Thank you very much for the 
invitation to speak today. Amtrak takes its responsibility to 
protect its passengers, employees, and patrons seriously. And 
on behalf of Amtrak's new CEO, Mr. Charles ``WICK'' Moorman, 
and the men and women of the Amtrak Police Department, I am 
happy to discuss our efforts with you.
    Amtrak serves more than 500 communities in 46 states, 
carrying over 31 million travelers last year, which was a 
record. APD was created to protect employees, passengers, 
stations, and critical infrastructure. Uniform officers are the 
most visible patrol presence, performing right-of-way 
inspections, random passenger bag screening, and regular 
patrols. They are supported by the Special Operations Division 
that specializes in counterterrorism, countersurveillance, and 
response tactics to include K-9 operations.
    APD is a leader in the vapor wake K-9 program, which is 
capable of detecting explosive particles in the air as someone 
passes by. Our K-9 program of both conventional and vapor wake 
detection dogs averages over 1,000 train rides a month. 
Additionally, we coordinate with numerous local, state, and 
Federal agencies, and Amtrak detectives are assigned to the 
FBI, National Joint Terrorism Task Force at the National 
Counterterrorism Center, as well as the JTTFs and key field 
officers across the country.
    We have also trained Amtrak employees and passengers to 
spot suspicious behaviors and report the activity to the APD by 
phone or text. The ability to leverage our skilled workforce 
and our passengers contributes greatly to our safety and 
security.
    We have worked diligently in recent years to install 
security improvements that align with the implementing 
regulations of the 
9/11 Commission Act, Section 1513(b), which authorizes Amtrak 
to allocate its DHS grant funding to 22 permissible counter-
terrorism purposes. And Amtrak has undertaken numerous 
initiatives, including adding K-9 teams; conducting DHS ISTEP 
exercises, which are the Intermodal Security Training and 
Exercise Program; and improving station security, surveillance, 
and station hardening measures.
    While some formal regulations are under development, Amtrak 
has worked to comply with the spirit and affordable security 
requirements of the Act, including security planning, risk 
assessments, and employee training. Furthermore, we have 
received the Gold Standard ranking from TSA after last year's 
baseline assessment and security evaluation. This is TSA's 
highest ranking.
    Over the years, Federal investment to implement security 
improvements aimed at protecting Amtrak's passengers, 
employees, and infrastructure has varied. Amtrak receives 
Intercity Passenger Rail grant funds through annual DHS 
appropriations for security projects that are linked to 
transportation security fundamentals as described in grant 
funding guidance and are consistent with Section 1513 of the 9/
11 Act. These areas generally fall into programs associated 
with security best practices: planning and assessments; 
infrastructure protection; security awareness, training, and 
exercises; and operational packages and equipment.
    In 2008 and 2009, Amtrak received over $25 million from the 
Intercity Passenger Rail grant program, but since 2012, 
appropriations have dropped to $10 million. At this level, the 
ability of Amtrak to reduce risk and protect passengers is 
reduced.
    With sufficient funding, Amtrak could implement a wide 
range of identified risk management solutions for 
infrastructure protection, such as expanded video surveillance, 
next-generation access control systems, and more high-security 
fencing. The APD would be able to expand its K-9 program, 
deploy additional security services, and increase the number of 
screening teams nationally. These improvements would greatly 
benefit the traveling public and ensure the Nation's investment 
in Amtrak receives the protection it deserves.
    I look forward to answering any questions you might have 
about Amtrak's transportation security program.
    Thank you.
    [The prepared statement of Mr. Trugman follows:]

  Prepared Statement of Neil Trugman, Interim Chief of Police, Amtrak
    Good morning Madam Chair, Senator Booker and members of the 
Committee. Thank you very much for the invitation to speak today. 
Amtrak takes its responsibility to protect its passengers, employees 
and patrons seriously, and on behalf of Amtrak's new CEO, Mr. Charles 
``WICK'' Moorman, and the men and women of the Amtrak Police Department 
(APD), I'm happy to discuss these issues with you.
    Amtrak serves more than 500 communities in 46 states, carrying over 
31 million travelers last year, a record, and we have carried more than 
thirty million riders for the last six years. APD was created to 
protect employees, passengers, stations, rolling stock and critical 
infrastructure. Uniformed officers are the most visible patrol 
presence, supported by a Special Operations Division that receives 
special training in prevention, detection and response tactics. APD was 
a leader in ``vapor wake'' K-9 program, which are capable of detecting 
explosive particles in the air after someone carrying them has passed. 
APD performs counter-terrorism and counter-surveillance operations, 
random passenger bag screening, and right-of-way patrols. Our K-9 
program of both conventional and vapor wake detection dogs averages 
1,000 train rides a month. We coordinate with numerous other local, 
state, and Federal agencies, and Amtrak officers are assigned to the 
FBI National Joint Terrorism Task Force at the National Counter-
Terrorism Center, as well as Joint Terrorism Task forces, in key field 
offices across the country.
    Passenger rail security differs fundamentally from aviation 
security. Many railroad stations are a part of the urban fabric of city 
centers. The largest stations are multi-modal, hosting busses, subways 
and commuter rail with offices, food courts and retail establishments. 
New York Penn Station hosts more rail travelers annually than the La 
Guardia, JFK, and Newark Airports together. Daily commuting cycles 
require a fundamentally different security solution than airports, 
because urban terrain is different, and rail journeys are an organic 
part of our travelers' daily schedule.
    Conversely, small rural stations are frequently unstaffed and 
provide access and connectivity between the Nation's heartland and its 
cities through an intercity route system. Screening every passenger 
prior to boarding in the passenger rail environment, as the airports 
do, is not feasible without resources and technology railroads don't 
currently possess. We do however, employ a variety of tactics to 
surveil key infrastructure and stations, while retaining robust 
capability to surge resources and leverage partnerships in 
unpredictable ways to complicate the task for an attacker. We 
coordinate with other law enforcement agencies and the intelligence 
community to respond to threats and adapt tactics in anticipation of 
potential new threats. We have also trained Amtrak's employees and 
passengers to spot and report suspicious behaviors including by phone 
or text. The ability to leverage our skilled workforce and our 
passengers contributes significantly to our safety and security.
    We have also worked diligently in recent years to install security 
improvements that align with the Implementing Regulations of the 9/11 
Commission Act. Section 1513(b) authorizes Amtrak to allocate its DHS 
grant funding to 22 permissible counterterrorism purposes, and Amtrak 
has undertaken numerous initiatives, including adding K-9 teams, 
conducting DHS-approved (Intermodal Security Training and Exercise 
Program), ISTEP exercises, improving station security and surveillance 
and station hardening measures. While some formal regulations are under 
development, Amtrak has worked to comply with the spirit and affordable 
security requirements of the Act, including security planning, risk 
assessments and employee training. Furthermore, we have received a 
``Gold'' standard ranking from TSA after last year's Baseline 
Assessment and Security Evaluation. This is TSA's highest ranking.
    Over the years, Federal investment to implement security 
improvements aimed at protecting Amtrak passengers, employees, and 
infrastructure has varied. Amtrak receives Intercity Passenger Rail 
(IPR) grant funds through annual DHS appropriations for security 
projects that are linked to transportation security fundamentals as 
described in grant funding guidance, and are consistent with Section 
1513 of the 9/11 Act. These areas generally fall into programs 
associated with security best practices: planning and assessments; 
infrastructure protection; security awareness, training and exercises; 
and operational packages and equipment. In 2008 and 2009, Amtrak 
received over $25 million from the Intercity Passenger Rail grant 
program, but since 2012, appropriations have dropped to the $10 million 
level.
    At this level, the ability of Amtrak to reduce risk and protect 
passengers is reduced. With sufficient funding, Amtrak could implement 
a wide range of identified risk management solutions for infrastructure 
protection, such as expanded video surveillance, next generation access 
control systems, and more high security fencing. The APD would be able 
to expand its K-9 program, deploy additional security services and 
increase the number of screening teams nationally. These improvements 
would greatly benefit the traveling public and ensure the Nation's 
investment in Amtrak receives the protection it deserves.
    I look forward to answering any question you might have about 
Amtrak's transportation security program.

    Senator Fischer. Thank you very much.
    Next, we have Mr. Chris Spear, who is the President and CEO 
of the American Trucking Association.
    Welcome.

STATEMENT OF CHRIS SPEAR, PRESIDENT AND CEO, AMERICAN TRUCKING 
                       ASSOCIATION (ATA)

    Mr. Spear. Thank you, Chairman Fischer, Ranking Member 
Booker, and distinguished members of the Subcommittee. Thank 
you for the opportunity to testify today. My name is Chris 
Spear. I am the President and CEO of the American Trucking 
Association, with a membership through our affiliated partners 
of more than 30,000 companies and every type and class of motor 
carrier operation.
    The trucking industry is an integral component of our 
nation's economy, transporting more than 80 percent of our 
nation's freight and employing approximately 7 million workers 
in trucking related jobs, including over 3.5 million commercial 
drivers. It's also important to note that the trucking industry 
is comprised primarily of small businesses, with 97.3 percent 
of trucking companies operating 20 trucks or less and 90.8 
percent operating six trucks or less. Most importantly, the 
trucking industry now spends more than $9.5 billion each year 
on safety enhancements to help ensure that drivers and 
passengers of all vehicles make it safely to their destination.
    ATA also places great emphasis on security, the topic of 
today's hearing. Our focus is on strengthening transportation 
security without undermining economic security. To do this, we 
must rationalize the various credential requirements commercial 
drivers use, whether it be one federally issued credential or a 
credential with a Federal background check, such as a hazardous 
materials endorsement, to satisfy any Federal regulation that 
requires having a criminal history records check to operate in 
a facility or to conduct certain operations.
    Having drivers undergo multiple, duplicative screenings, in 
our view, undermines our Nation's economic security by posing a 
direct financial burden on drivers and motor carriers and 
further depleting scarce Federal Government resources. Since 
MTSA authorized TWIC in 2002, ATA has advocated a one 
credential or screening, many-uses policy to balance the flow 
of commerce without compromising the security of our Nation's 
supply chain.
    ATA strongly believes that the TWIC can serve as a 
universal credentialing background check, as well as a physical 
access control security mechanism at regulated port facilities. 
If the role of TWIC is to prevent acts of terror from occurring 
and to stop possible terrorists from obtaining access to secure 
areas of MTSA regulated facilities, one could argue this 
objective is being met. Yet the timeline for achieving this 
goal is unsatisfactory at best.
    Redundancy of security threat assessments has still not 
been addressed. It has been 15 years since the tragic events of 
September 11, yet commercial drivers are still required to get 
a background check for TWIC, HME, and Free and Secure Trade, as 
well as different airport checks. Imagine requiring two 
separate cards for getting to and from the House and Senate. 
That's just two locations. Now multiply that number by the 
thousands, and we begin to understand what commercial drivers 
and carriers face every day.
    Adopting a one credential or screening, many-uses policy 
would fix this problem. Absent this policy, ATA's highest 
security priority will continue to be the multiplicity of 
background checks and their associated costs and burdens. 
Drivers must undergo these checks to perform their everyday 
work responsibilities, including transporting hazardous 
materials, delivering at maritime facilities, crossing 
international borders, and transporting air cargo.
    ATA has consistently supported a system and process that 
provides for a criminal history records check through national 
data bases. Today's threats aren't against one or more states, 
but America itself. In my previous life, I worked in the Middle 
East; North Africa; Central Asia, including Iraq, Syria, and 
Libya, and I've encountered elements that hold America in 
disdain. They don't chant ``death to Nebraska'' or New Jersey. 
They chant ``death to the United States.''
    So if we're serious about protecting our homeland, then we 
must eliminate reactive behavior that results in redundant 
policies and practices. This is why the ATA supports the TWIC 
as the potential single credential and Security Threat 
Assessment that, in turn, can demonstrate and provide 
compliance with multiple programs and regulations.
    TSA has not yet provided for full recognition of one STA 
for compliance with another regulatory STA, for instance, 
permitting TWIC holders seeking an HME to follow their TWIC as 
proof of already having an equivalent STA. This is a policy 
that is supported statutorily by Section 1556 of the 9/11 
Commission Act, whereas other Federal agencies, including DOD, 
are accepting the TWIC for compliance with their credentialing 
requirements.
    ATA continues to voice its concern with GAO's suggestion 
that Congress consider alternative credentialing approaches 
which might include a more decentralized approach for achieving 
TWIC program goals. A decentralized approach is inherently 
flawed, will elevate security risks, inflict harm to our 
economy, and further delay adoption of a one credential or 
screening, multiple-use policy.
    ATA supports the DHS serving as the primary authority in 
coordinating and managing security programs affecting the 
transportation sector. In that vein, harmonizing the 
consolidation of the motor carrier requirements pertaining to 
security background checks, security plans, security training, 
and corporate security reviews is and remains an elevated 
industry priority.
    ATA also supports the Surface Transportation and Maritime 
Security Act, S. 3379, recently introduced by this committee, 
which would take steps to reduce costly and unnecessary 
background check requirements on drivers, specifically by 
allowing TWIC holders to obtain their hazmat endorsement 
without the need for additional background checks.
    A secondary security priority for the ATA is also 
cybersecurity. This is an issue that we are very keen to 
address, as it becomes more applicable to an integrated 
trucking industry, and a topic that I would be more than eager 
to take questions on today.
    Protecting our Nation's critical infrastructure is a key 
priority for the trucking industry, as it is essential to our 
Nation's security and economic prosperity. Threats to our 
Nation's roadways pose a danger to the motoring public and the 
security of our complex supply chain. The ATA stands ready to 
support Congress and DHS to be sure that enhanced national 
security and the unencumbered flow of commerce remain 
compatible priorities.
    Thank you.
    [The prepared statement of Mr. Spear follows:]

         Prepared Statement of Chris Spear, President and CEO, 
                  American Trucking Associations (ATA)
Introduction
    Chairman Fischer, Ranking Member Booker and distinguished members 
of the subcommittee, thank you for the opportunity to testify today on 
``Assessing the Security of our Critical Surface Transportation 
Infrastructure.'' My name is Chris Spear, and I am the President and 
CEO of the American Trucking Associations (ATA). Founded in 1933, ATA 
is the Nation's preeminent organization representing the interests of 
the U.S. trucking industry. Directly and through its affiliated 
organizations, ATA encompasses more than 30,000 companies and every 
type and class of motor carrier operation.
    The trucking industry is an integral component of our Nation's 
economy, transporting more than 80 percent of our Nation's freight and 
employing approximately 7 million workers in trucking-related jobs, 
including over 3.5 million commercial drivers.\1\ It is also important 
to note that the trucking industry is comprised primarily of small 
businesses, with 97.3 percent of trucking companies operating 20 trucks 
or less, and 90.8 percent operating six trucks or less.\2\ 
Approximately 80 percent of all U.S. communities depend solely on 
trucks to deliver and supply their essential commodities.\3\ Most 
importantly, the trucking industry now spends more than $9.5 billion 
each year on safety enhancements to help ensure that drivers and 
passengers of all vehicles make it safely to their destination.\4\
---------------------------------------------------------------------------
    \1\ American Trucking Associations, American Trucking Trends 2016 
(August 2016)
    \2\ American Trucking Associations, American Trucking Trends 2016 
(August 2016).
    \3\ ATA staff, developed the 80 percent figure by using the Rand 
McNally Commercial & Marketing Guide (2001) numbers for rail service to 
communities and calculating the inverse, ultimately deriving the number 
of communities serviced by truck.
    \4\ American Trucking Associations, (2016, June 26). Trucking 
Industry Spends $9.5 Billion In Safety Annually. Retrieved from: http:/
/www.trucking.org/ATA%20Docs/News%20and%20Infor
mation/Reports%20Trends%20and%20Statistics/
06%2028%2016%20%20Trucking%20Industry%
20Invests%20$9%205%20Billion%20in%20Safety%20Annually.pdf
---------------------------------------------------------------------------
    ATA also places great emphasis on security. Our focus is on 
strengthening transportation security without undermining economic 
security. To do this, we must rationalize the various credential 
requirements commercial drivers use, whether it be one federally issued 
credential or a credential with a Federal background check, such as a 
Hazardous Materials Endorsement (HME), to satisfy any Federal 
regulation that requires a criminal history records check to operate in 
a facility or to conduct certain operations. Having drivers undergo 
multiple duplicative screenings undermines our Nation's economic 
security by posing a direct financial burden on drivers and motor 
carriers and further depleting scarce Federal Government resources. In 
short, this current and longstanding lack of coordination among Federal 
agencies in harmonizing or coordinating screening requirements is not a 
viable operating environment for motor carriers and commercial drivers.
The Problem with Alternative Credentialing Approaches
    Since the Maritime Transportation Security Act (MTSA) of 2002 (Sec 
102 of PL 107-295) authorized the Transportation Worker Identification 
Card (TWIC), ATA has advocated a ``one credential or screening, many 
uses'' policy to balance the flow of commerce without compromising the 
security of our Nation's supply chain. ATA strongly believes that the 
TWIC can serve as a universal credentialing/background check as well as 
a physical access control security mechanism at regulated port 
facilities. If the goal for TWIC is to prevent acts of terror from 
occurring and to stop possible terrorists from obtaining access to 
secure areas of MTSA-regulated facilities, one could argue that this 
objective is being met. Yet the timeline for achieving this goal is 
unsatisfactory at best. It has been 15 years since MTSA was enacted, 9 
years since the TWIC final rule became effective, and still America has 
to wait two more years before TWIC readers are to be fully implemented. 
While one could argue that this is measurable progress, ATA believes 
that we can and must do better.
    Redundancy of security threat assessments has still not been 
addressed. It has been 15 years since the tragic events of September 
11, yet commercial drivers are still required to get a background check 
for TWIC, HME and Free and Secure Trade (FAST), as well as different 
checks for airports. Imagine requiring two separate cards for getting 
to and from the House and Senate. That's just two locations. Now 
multiply that number by the thousands and we begin to understand what 
commercial drivers and carriers face every day. Currently, there are 
2.1 million active TWIC cards out of more than 3.5 million issued.\5\ 
When dealing with over 700,000 drivers,\6\ that have acquired the TWIC 
since 2007; requiring access to thousands of sensitive sites throughout 
the nation, the numbers tell the story.
---------------------------------------------------------------------------
    \5\ Office of Inspector General; Department of Homeland Security 
(2016). TWIC Background Checks are Not as Reliable as They Could Be 
(OIG-16-128)
    \6\ ATA staff was given this number by DHS, Office of Security 
Policy and Industry Management
---------------------------------------------------------------------------
The Solution is TWIC
    Adopting a ``one credential or screening, many uses'' policy would 
fix this problem. Absent this policy, ATA's highest security priority 
will continue to be the multiplicity of background checks and their 
associated costs and burdens. Drivers must undergo these checks to 
perform their everyday work responsibilities, including transporting 
hazardous materials, delivering at maritime facilities, crossing 
international land borders and transporting air cargo. ATA has 
consistently supported a system and process that provides for a 
criminal history records check through national databases. Today's 
threats aren't against one or more states, but America itself. If we're 
serious about protecting our homeland, then we must eliminate reactive 
behavior that results in redundant policies and practices. This is why 
ATA supports the TWIC as the potential single credential and Security 
Threat Assessment (STA) that, in turn, can demonstrate and provide 
compliance with multiple programs and regulations.
    TSA has not yet provided for full recognition of one STA for 
compliance with another regulatory STA, for instance permitting TWIC 
holders seeking an HME to show their TWIC as proof of already having an 
equivalent STA. This is a policy that is supported statutorily by 
Section 1556 of the 9/11 Commission Act, whereas other Federal agencies 
are accepting the TWIC for compliance with their credentialing 
requirements. For example, the Department of Defense (DOD) has 
established policy allowing commercial drivers transporting freight in 
and out of appropriate military facilities to use a TWIC in lieu of 
obtaining a DOD-issued Common Access Card (CAC). DOD acceptance of the 
TWIC for such purposes is recognition of the strength of the TWIC STA 
process and its compliance with Federal Personal Identity Verification 
(PIV) standards used by millions of Federal employees.
    The Government Accountability Office (GAO) issued a report three 
years ago \7\ criticizing TSA's planning shortfalls for implementing 
the TWIC reader pilot in a manner that did not yield usable information 
due to data-collection challenges. While ATA recognizes that TSA faced 
some technology challenges in collecting TWIC-reader functionality 
data, we would also point out that certain facilities using the TWIC 
readers successfully verified the credentials' status, identifying and 
improving throughput for truck operations. Additional focus should be 
given to facilities that have successfully implemented the TWIC 
readers, utilizing the ``lessons-learned'' and applying them to other 
facilities facing reader challenges.
---------------------------------------------------------------------------
    \7\ Government Accounting Office (2013), Transportation Worker 
Identification Credential: Card Reader Pilot Results Are Unreliable; 
Security Benefits Should Be Reassessed, (GAO-13-695T)
---------------------------------------------------------------------------
    ATA continues to voice its concern with GAO's suggestion that 
Congress consider ``alternative credentialing approaches, which might 
include a more decentralized approach for achieving TWIC program 
goals.'' \8\ A decentralized approach is inherently flawed, will 
elevate security risks, inflict harm to our economy and further delay 
adoption of a ``one credential or screening, multiple uses'' policy. 
Specifically, a decentralized approach would result in an environment 
in which each state or location performs STAs and issues separate 
credentials for truck drivers to access maritime facilities throughout 
the country. Such a scenario would result in an increasingly 
burdensome, inefficient and ineffective system for transportation 
workers who work and operate at multiple MTSA-regulated facilities. In 
contrast, the TWIC serves as a robust, nationwide, uniform STA that can 
be utilized at multiple locations when matched with the appropriate 
readers. For GAO to legitimately stand by its recommendation for 
decentralization, it would first need to explain why DOD's command and 
control administration of its CAC credential and the measurable 
benefits it provides its holders around the world should do the same. 
Such a suggestion would be baseless, just as it is for the TWIC 
credential. The TSA and Coast Guard need to focus their efforts on 
ensuring the successful deployment of TWIC readers nationwide rather 
than creating a vast assortment of individual systems, which, 
unfortunately our Nation still has 16 years after TWIC was authorized 
by Congress.
---------------------------------------------------------------------------
    \8\ Federal Government Approaches to Issuing Biometric IDs: Hearing 
before the Subcommittee on Government Operations of the Committee of 
Oversight and Government Reform, House of Representatives, 113th 
Congress (2013) (Testimony of Stephen M. Lord)
---------------------------------------------------------------------------
    ATA supports the implementation of the TWIC readers to improve 
security as well as throughput at maritime facilities for commercial 
vehicles. ATA asks Congress to remain vigilant during the 
implementation of the TWIC reader final rule; holding DHS accountable 
for ensuring that personnel working throughout our country's critical 
transportation infrastructure have been properly screened and continue 
to be vetted through relevant databases. Moreover, when the credential 
is utilized with the appropriate readers, it can ensure the validity of 
the card, match the TWIC to the cardholder, and allow for improved 
throughput when entering secure areas requiring these systems.
Some TWIC Progress Being Made
    Setting the ATA's standing request for a ``one credential or 
screening, many uses'' policy aside, there are specific instances of 
progress with respect to TWIC that ATA can report to this subcommittee. 
In 2014, ATA submitted written testimony to the Senate Committee on 
Homeland Security and Governmental Affairs.\9\ At that time, we 
provided an update on several challenges and opportunities facing the 
full adoption of TWIC based on day-to-day experiences of the trucking 
industry, including:
---------------------------------------------------------------------------
    \9\ Evaluating Port Security: Progress Made and Challenges Ahead: 
Hearing before the Committee on Homeland Security and Governmental 
Affairs, Senate (2014)

---------------------------------------------------------------------------
  <bullet> The excessively high cost of the TWIC;

  <bullet> The extended time the application process requires of 
        applicants, taking time off work twice; once to apply and 
        provide the biometrics; and, a second visit to pick up the 
        credential;

  <bullet> The failure to expand TWIC's utilization to satisfy other 
        Federal STA regulatory requirements, including identical STA 
        programs within the Transportation Security Administration 
        (TSA);

  <bullet> The past lack of TWIC enrollment facilities nationwide to 
        facilitate the enrollment of transportation workers who live 
        far from either coast; and,

  <bullet> The failure to implement the TWIC rule with its essential 
        counterpart reader rule, annulling the credential's technology 
        benefits and serving only as an expensive ``flash-pass.''

    Since citing these five concerns in 2014, ATA is pleased to report 
that it has witnessed moderate improvements. The cost of the TWIC just 
two years ago was $129.50. It is now $125.25 for new applicants; 
$105.25 for new applicants with a valid HME; and, a replacement card is 
now $60.00. That said, the combined costs for TWIC and HME screenings 
have well surpassed $200 million, paid for entirely by the trucking 
industry as part of the overall cost to keep our Nation safe.
    While the TSA website still cites an extended wait time of 4 to 6 
weeks for applications to process, TWIC applications are now reportedly 
being processed in as little as two weeks. Applicants also don't have 
to take as much time off to acquire their actual credential. In July of 
2014, TSA allowed for the ``one visit'' program to go national. The 
second visit to pick up a TWIC from the enrollment center was no longer 
required. Applicants could now have their TWIC or replacement TWIC 
mailed to their home.
    The failure to expand the utilization of TWIC has also improved 
since 2014, but unfortunately not by much. Drivers with TWIC cards are 
deemed to have met the requirements for the Personnel Surety Program 
(PSP) under Chemical Facility Anti-Terrorism Standards of 2014 \10\ and 
have the ability to use the TWIC to enter covered facilities and 
installations.
---------------------------------------------------------------------------
    \10\ Protecting and Securing Chemical Facilities from Terrorist 
Attacks Act of 2014, Pub. L. 113-254. Sec. 2102, 128 Stat.2909 (2014)
---------------------------------------------------------------------------
    The lack of enrollment centers has been addressed by the contractor 
as suggested in our 2014 testimony. Forty-one states now use the 
universal enrollment for TSA and the fingerprint locations can also be 
kiosks at state DMV's.
    As for implementation of the reader rule, the U.S. Coast Guard put 
out this rule in August of this year and it is currently expected to go 
into effect August 23, 2018. The rule, however, uses a tier level 
system, where only the highest level are required to use the readers. 
If that occurs, many of ATA's members required to have TWIC may not 
have their card scanned.
    ATA members, specifically drivers and carriers, will continue to 
serve on the front line where they experience the successes and 
shortfalls of TWIC. That being the case, ATA will continue to update 
Congress as well as provide comments to DHS and its agencies on these 
and any other challenges that may arise to help improve the TWIC 
program and balance the importance of transportation and economic 
security.
    ATA supports the DHS serving as the primary authority in 
coordinating and managing security programs affecting the 
transportation sector. In that vein, harmonization and consolidation of 
motor carrier requirements pertaining to security background checks, 
security plans, security training and corporate security reviews is and 
remains an elevated industry priority. ATA also supports the Surface 
Transportation and Maritime Security Act (S. 3379) recently introduced 
by the committee, which would take steps to reduce costly and 
unnecessary background check requirements on drivers, specifically by 
allowing TWIC holders to obtain their hazmat endorsement without the 
need for additional background checks. Such reforms will continue to 
improve the efficiency of goods movement without hindering our national 
security interests.
Cybersecurity
    A secondary security priority for the ATA is the need to continue 
harmonizing any security requirement on carriers to harden their 
operations when transporting certain types of cargo or operating in 
environments that require a higher degree of security. Trucking is not 
exempt from the threats of cybersecurity. Our industry will continue to 
work with service providers as well as government agencies to improve 
our cybersecurity posture and make certain that our systems and 
protocols are never compromised.
    The number of cyberattacks throughout the country continues to 
climb, compromising countless businesses and threatening consumer and 
personal privacy. Moving the majority of our Nation's freight and 
adopting more technology that our industry requires to remain 
competitive and efficient makes trucking equally susceptible to cyber 
threats. Trucking companies have already been victims of ``ransomware'' 
(i.e., locked out of their servers with demands for money to resume 
access) and have had sensitive business information stolen.
    In October, hackers initiated a denial of service attack that 
caused a massive Internet outage, leading to widespread disruption of 
commerce and usage among Americans who rely upon the Internet for a 
wide variety of transactions. The trucking industry is ever mindful of 
such threats, especially while the debate over autonomous vehicles 
unfolds. While the potential of automated trucks to improve highway 
safety and save lives is significant, so is the danger posed by cyber 
criminals and terrorists. ATA will continue to advocate for a policy 
framework on autonomous vehicles that will ensure public safety and 
reduce threats to our Nation's infrastructure, while also encouraging 
innovation in this rapidly changing environment where the benefits of 
improving safety, reducing emissions and fuel burn, eliminating 
congestion and increasing productivity may ultimately reside.
    The ATA also supports voluntary supply chain security programs that 
embrace stakeholder input, adopting best practices established by 
industry, and offering motor carriers valuable benefits in exchange for 
program participation. The sharing of information is yet another key 
component of the private and public sectors working in partnership to 
implement coordinated and integrated protective security measures.
Conclusion
    Protecting our Nation's critical transportation infrastructure is a 
key priority for the trucking industry, as it is essential to our 
Nation's security and economic prosperity. Threats to our Nation's 
roadways pose a danger to the motoring public and the security of our 
complex supply chain. The ATA remains committed to working with DHS to 
protect our highways from potential threats and mitigate the 
possibility of a truck conveyance from transporting or being used as a 
weapon. ATA has and will continue to actively participate as a member 
of the Highway and Motor Carrier Sector Coordinating Council to work 
with other industry stakeholders and our government partners to 
identify and implement solutions to improve the security of our 
Nation's critical surface transportation infrastructure. Regulation for 
the sake of regulation, however, is not a solution. Security 
regulations should continually seek to effectively balance national 
security interests without hindering the efficient movement of goods 
throughout our economy by placing undue burdens or costs on industry 
and subsequently, consumers. In doing so, our increasingly connected 
world and trucking industry requires a mindset where cyber threats to 
our Nation's infrastructure can be just as consequential to public 
safety and our economy as physical attacks. The ATA stands ready to 
support Congress and DHS to be sure that enhanced national security and 
the unencumbered flow of commerce remain compatible priorities.

    Senator Fischer. Thank you, Mr. Spear.
    Next, we have Mr. Tony Straquadine--did I pronounce your 
name right?
    Mr. Straquadine. Yes, ma'am. That's correct.
    Senator Fischer.--who is Manager of Commercial and 
Government Affairs at Alliance Pipeline and a Representative of 
the Interstate Natural Gas Association of America.
    Welcome.

        STATEMENT OF ANTHONY STRAQUADINE, JR., MANAGER,

          COMMERCIAL, GOVERNMENT AFFAIRS AND MANAGING

              U.S. OFFICER, ALLIANCE PIPELINE INC.

    Mr. Straquadine. Good afternoon, Chairwoman Fischer, 
Ranking Member Booker, and members of the Subcommittee. My name 
is Tony Straquadine. I'm appearing before you today as a 
representative of Alliance Pipeline and as a member company of 
the Interstate Natural Gas Association of America, or INGAA.
    Alliance Pipeline is a 2,400-mile integrated Canadian and 
U.S. natural gas transmission system pipeline, delivering rich 
natural gas from Western Canada and North Dakota's Bakken 
formation to the Chicago market. We've been in commercial 
service since December 2000 and deliver an average of 1.6 
billion cubic feet of natural gas per day. Each and every day, 
our staff focuses on the safe and reliable transportation of 
natural gas for our shippers. The abundant and affordable 
energy we transport is used for heating homes, creating 
affordable electricity, and revitalizing American 
manufacturing.
    My testimony today will address a voluntary cybersecurity 
architecture review recently completed by Alliance Pipeline 
with staff from TSA and FERC's Office of Energy Infrastructure 
Security. I'll also provide brief comments on Senate Bill 3379, 
Surface Transportation and Maritime Security Act.
    In August 2016, Alliance met for a two-day, voluntary 
cybersecurity architecture review with members of FERC's Office 
of Energy Infrastructure Security and TSA's Office of Security 
Policy and Industry Engagement. This review was designed to be 
a collaborative, non-regulatory approach that promotes secure 
and resilient infrastructure through the sharing of information 
and best practices.
    The goal of the review was to gain a comprehensive 
understanding of the entity's overall cybersecurity posture, to 
identify potential areas of concern, and to articulate 
actionable recommendations and observations that promote 
positive change in the security posture of the reviewed 
organization. This review encompassed all aspects of Alliance's 
information systems and networks, including our industrial 
control systems.
    While this review was led by FERC's Office of Energy 
Infrastructure Security, TSA staff actively participated to 
better understand the risks and best practice recommendations 
in the cybersecurity areas related to natural gas pipelines. 
TSA acknowledged that they have much to learn, and Alliance 
Pipeline supports TSA's effort to build their competencies in 
this area. I would also like to acknowledge the FERC team for 
their efforts in leading this review.
    The outcome of this review was well received by all 
parties, as Alliance Pipeline received over 60 best practice 
observations and recommendations. Alliance is working to 
implement many recommendations that have been prioritized to 
ensure ongoing safe and efficient cybersecurity operations. 
Alliance has also recommended that other pipelines in our 
industry sector consider participating in a similar 
cybersecurity architecture review.
    Alliance Pipeline has reviewed S. 3379, and on behalf of 
INGAA, we support this legislation with the following comments. 
First, we support the creation of an advisory committee as 
proposed in Section 8 of this bill but suggest that the broad 
array of different transportation modes being represented under 
one committee might limit more sector-specific expertise and 
involvement in the Committee. We would suggest either formal or 
informal subcommittees focused on specific sectors, such as 
marine or pipelines, which would allow for greater involvement 
within that sector in the advisory committee decisionmaking 
process.
    Second, we agree with the comments on the Transportation 
Worker Identification Credential Program improvements and 
oversights as contained in Section 17. We also support the 
mission of TSA in their oversight role and look forward to 
working with the agency as they add additional departmental 
resources to interface with the pipeline sector, specifically.
    With respect to both cyber and physical infrastructure 
security in the pipeline sector, we'd like to note that the 
energy pipeline industry is experiencing greater numbers of 
threats from those who want to attack infrastructure as a way 
to make a political statement about the use of fossil fuels. 
These threats are potentially dangerous and disruptive, and we 
note that to date, there has been a reluctance to prosecute 
these perpetrators. This is creating an appearance of a risk-
free environment for future attacks on pipelines. Attacks on 
pipeline infrastructure should be treated in a consistent 
manner, whether those attacks are coming from a foreign state 
or whether such attacks are coming from demonstrators bent on 
making a dramatic impact with the media.
    In conclusion, Alliance Pipeline supports improving 
cybersecurity review capabilities of TSA as it relates to the 
natural gas transmission pipeline industry. We also broadly 
support S. 3379 with the above noted recommendations.
    Madam Chair, thank you again for the opportunity to provide 
insight into Alliance Pipeline's focus on maintaining safe and 
reliable natural gas pipeline operations which results in the 
reliable delivery of energy to heat our homes, fuel our 
economy, and keep the lights on. I'd be happy to answer 
questions at the appropriate time.
    [The prepared statement of Mr. Straquadine follows:]

 Prepared Statement of Anthony Straquadine, Jr., Manager, Commercial, 
  Government Affairs and Managing U.S. Officer, Alliance Pipeline Inc.
    Good afternoon Chairman Fischer, Ranking Member Booker, and members 
of the Subcommittee. My name is Tony Straquadine, and I am the Manager, 
Commercial, Government Affairs and Managing U.S. Officer for Alliance 
Pipeline Inc. I am appearing before you today as a representative of 
Alliance Pipeline and as a member company representing the Interstate 
Natural Gas Association of America (INGAA).
    Alliance Pipeline consists of a 2,391-mile integrated Canadian and 
U.S. natural gas transmission pipeline system, delivering rich natural 
gas from the Western Canadian Sedimentary Basin and the Williston Basin 
to the Chicago market hub. The United States portion of the system 
consists of approximately 967 miles of infrastructure including the 80-
mile Tioga Lateral in North Dakota. Alliance has been in commercial 
service since December 2000 and, through an innovative suite of 
customer-focused services, delivers an average of 1.6 billion standard 
cubic feet of natural gas per day. Each and every day, Alliance 
Pipeline staff focuses on the safe and reliable transportation of 
natural gas for our shippers; those who live and work near our system; 
and our employees. The abundant and affordable energy we transport is 
used for heating homes, creating affordable electricity, and 
revitalizing American manufacturing.
    As authorized under the Natural Gas Act, Alliance Pipeline is an 
interstate natural gas pipeline certificated by the Federal Energy 
Regulatory Commission (FERC). Alliance is also subject to pipeline 
design and safety oversight by the Department of Transportation's 
Pipeline and Hazardous Materials Safety Administration (DOT-PHMSA). 
Natural gas pipelines also operate with the benefit of the guidance of 
the Department of Homeland Security's Transportation Security 
Administration (DHS-TSA). TSA's surface transportation pipeline program 
is designed to enhance the security preparedness of the Nation's 
natural gas pipeline systems and provide cyber risk management 
information to surface transportation operations, including the U.S. 
Computer Emergency Readiness Team (US-CERT).
    My testimony today will address a voluntary Cybersecurity 
Architecture Review recently completed by Alliance Pipeline with staff 
from DHS-TSA and the FERC Office of Energy Infrastructure Security 
(OEIS) staff. I will also provide brief comment on S. 3379, the draft 
bill titled ``Surface Transportation and Maritime Security Act.''
Voluntary Cybersecurity Architecture Review
    During August 2016, led by Alliance Pipeline's President and CEO, 
Mr. Terrance Kutryk and senior Information Services staff, Alliance met 
for a two-day voluntary Cyber Security Architecture Review (the Review) 
with members of the FERC OEIS and DHS-TSA's Office of Security Policy 
and Industry Engagement. This Review was designed to be a 
collaborative, non-regulatory approach that promotes secure and 
resilient infrastructure through the sharing of information and best 
practices. The goal of the Review was to gain a comprehensive 
understanding of an entity's overall cybersecurity posture, to identify 
potential areas of concern, and to articulate actionable 
recommendations and observations that promote positive change to the 
security posture of the reviewed organization.
    This Review encompassed the business environment, governance, risk 
management, teams and programs, cybersecurity awareness and training, 
supply chain security, and all company networks, including but not 
limited to corporate and industrial control systems. While this review 
was led by OEIS staff, DHS-TSA staff actively participated to better 
understand the risks and best-practice recommendations in the 
cybersecurity areas related to natural gas pipeline transmission 
systems. DHS-TSA clearly acknowledged that they had much to learn in 
the cybersecurity realm. Alliance Pipeline supports DHS-TSA's efforts 
to build their competency in this area. I'd also like to acknowledge 
FERC's OEIS team for their efforts in leading this Review.
    In advance of this Review, Alliance completed an assessment against 
the National Institute of Standards and Technology (NIST) Cybersecurity 
framework. This NIST framework was acknowledged by OEIS as best 
practice.
    The outcome of this Review was well received by all parties 
participating, as Alliance Pipeline received numerous best practice 
recommendations offered by OEIS and DHS-TSA. Alliance is working to 
implement many recommendations that have been prioritized to ensure 
ongoing safe and efficient cybersecurity operations. Alliance has also 
recommended that other pipelines in our industry sector consider 
participating in a similar Cybersecurity Architecture Review.
Alliance Pipeline Comments on the Surface Transportation and Maritime 
        Security Act
    Alliance Pipeline has reviewed the Surface Transportation and 
Maritime Security Act (the Act) draft, dated September 21, 2016. On 
behalf of INGAA, we support the legislation and offer the following 
comments.
    First, we support the creation of an advisory committee as proposed 
in Section 8, but suggest that the broad array of different 
transportation modes being represented under one committee might limit 
more sector-specific expertise and involvement in the committee. We 
would suggest either formal or informal subcommittees focused on 
specific sectors, such as marine or pipelines, which would allow for 
greater involvement within that sector in the advisory committee 
decision-making.
    Second, we agree with the transportation worker identification 
credential improvements and oversight contained in Section 17.
    We support the mission of TSA in their oversight role, but hope 
that more emphasis can be placed on having adequate departmental 
personnel in place to interface with the pipeline sector.
    With respect to both cyber and physical infrastructure security in 
the pipeline sector, we want to note that the energy pipeline industry 
is experiencing greater numbers of threats from those who want to 
attack infrastructure as a way to make a political statement about the 
use of fossil fuels. These threats are disruptive and potentially 
dangerous, and we note that to date there has been a reluctance to 
prosecute the perpetrators. Our industry's concern is that this could 
create the appearance of a ``risk-free'' environment for future attacks 
on pipelines. Attacks on pipeline infrastructure should be treated in a 
consistent manner, whether such attacks come from foreign states or 
from domestic activists bent on doing something dramatic for media 
attention.
Conclusion
    Both Alliance Pipeline and INGAA support improving the 
cybersecurity review capability of DHS-TSA as it relates to the natural 
gas transmission pipeline industry. We also broadly support the Surface 
Transportation and Maritime Security Act with the above noted 
recommended modifications.
    Madam Chair, thank you again for the opportunity to provide insight 
into Alliance Pipeline's focus on maintaining safe and reliable natural 
gas pipeline operations, which results in the reliable delivery of 
energy to heat our homes, fuel our economy and help keep our lights on. 
I would be happy to answer questions at the appropriate time.

    Senator Fischer. Thank you very much.
    Next, we have Mr. Tom Belfiore, the Chief Security Officer 
of the Port Authority of New York and New Jersey.
    Welcome, sir.

    STATEMENT OF TOM BELFIORE, CHIEF SECURITY OFFICER, PORT 
              AUTHORITY OF NEW YORK AND NEW JERSEY

    Mr. Belfiore. Thank you so much. Good afternoon, Honorable 
Chair of the Subcommittee.
    Senator Fischer. Good afternoon.
    Mr. Belfiore. Thank you for this privilege today to speak 
about the Port Authority's role in securing our critical 
surface transportation assets.
    The Port Authority of New York and New Jersey conceives, 
builds, operates, and maintains infrastructure critical to the 
New York-New Jersey region's transportation and trade network. 
The assets we protect include six airports, including JFK, 
Newark, and LaGuardia; two tunnels, the Holland and Lincoln 
Tunnels; four bridges, including the George Washington Bridge; 
the Port Authority bus terminal at 42nd Street and 8th Avenue 
in Manhattan; the PATH rail system which moves 265,000 
passengers each weekday; the ports of New York and New Jersey; 
and, of course, the World Trade Center complex in lower 
Manhattan.
    Recent domestic and international events prove to us that 
now, more than ever, we must be prepared to address ever-
growing, ever-evolving, and more lethal threats. The 
transportation sector and critical infrastructure assets remain 
as the most attractive targets of terrorist organizations and 
lone actors. Particularly acute are the Port Authority's 
assets, as we operate the Nation's largest airport system, the 
busiest bus terminal, the most traveled bridge in the nation, 
the East Coast's busiest ports, and secure the World Trade 
Center.
    The Port Authority employs a risk-based, intelligence-
driven, multi-layered security approach to protect these 
critical infrastructure assets and all those who depend on 
them. The layers in the methodology are: being intelligence-
led; measuring risk through a layered assessment process; 
police prevention and interdiction methods; operational 
security measures that include contract security resources; the 
deployment of available and developing technologies; the use of 
engineered hardening solutions; the Office of Emergency 
Management to include response and recovery; strong Federal, 
State, and regional partnerships and relationships; and, of 
course, we measure our effectiveness, audit, and revise the 
program constantly.
    Our policing strategy is intelligence-led, as the Port 
Authority Police Department has a presence in 28 Federal, 
State, and local law enforcement task forces that include the 
FBI Joint Terrorism Task Force in both the states of New York 
and New Jersey. We are confident that we are connected to 
receive important and actionable intelligence and information 
in a timely fashion that will help us protect these critical 
assets.
    Our PAPD is a highly competent and professional police 
agency that maintains a 24/7 command presence at our 
transportation facilities and assets. Our policing methods 
include routine uniform patrols, high visibility emergency 
service unit patrols, the deployment of dedicated counter-
terrorism teams, as well as the assignment of explosive 
detection K-9 units and radiation detection capabilities.
    Our police presence is supplemented by a contract security 
guard force of over 1,000 unarmed security officers who are 
trained in behavioral recognition techniques and counter-
terrorism awareness. These security officers are posted at 
critical locations throughout our facilities and also staff 
multiple 24/7 security operation centers.
    In addition to our human assets, we have made significant 
investments in our capital security projects as directed by our 
periodic program of risk assessments that inform our 
investments to further strengthen our facilities. Since 2001, 
the Port Authority has spent close to $9.9 billion on 
operational and capital security measures. This includes over 
$1.2 billion spent in asset hardening of critical 
infrastructure.
    For example, at our bridge facilities, we have protected 
suspension and main cables. At our PATH rail transit 
facilities, we have hardened our tunnels and have implemented 
flood protection strategies. At our marine facilities, we have 
installed complex access control and CCTV systems. We also 
continue to partner with Federal agencies in piloting state-of-
the-art radiation detection technologies. In the coming years, 
we plan to spend nearly another billion dollars to further 
protect these assets.
    The use of technology is of paramount importance. In 
addition to our agency-wide surveillance system of more than 
6,000 CCTV cameras, the Port Authority has invested in robust 
card access control and alarming systems; perimeter and laser 
intrusion detection systems; detection devices that help 
protect against chemical, biological, and radiological threats; 
a robust radio communication system that allows for 
interoperability with our mutual aid partners and first 
responders. The Port Authority operates a 24/7 cybersecurity 
operation center that can receive alerts from our cyber defense 
tools and respond to threats to our network and equipment.
    The Port Authority has its own Office of Emergency 
Management that is vital to this multi-layered protection 
scheme. They lead our agency-wide business continuity program. 
They manage and administer agency-wide security grants. They 
also plan and execute agency-wide training and full scale 
exercises. These remarkable training initiatives involve both 
agency personnel and our regional first responders. To date, 
over 27,000 Port Authority staff and regional partners have 
been trained on such topics as active shooter response, PATH 
rail emergencies, incident command, terrorism attacks, and 
other hazards.
    In order to maintain a prepared, unified, and accountable 
security operation, the Port Authority regularly measures, 
audits, and inspects programs and systems. These internal 
auditing programs allow us to proactively identify and mitigate 
issues and concerns before our adversaries can discover and 
exploit them. Furthermore, in an effort to ensure independent 
third party review, the Port Authority participates in the 
Department of Homeland Security Safety Act Program. Since 2011, 
we have received a number of Safety Act certifications and 
designations.
    So how can the Federal Government help? First and foremost, 
we thank you so much for the help we have received. We cannot 
do it without you. The Port Authority keeps security as a top 
priority. A critical resource is the Federal Grant Program. 
This funding source is essential to help us continue to protect 
our facilities from these ever-changing and evolving threats.
    A large source of funding comes from the Transit Security 
Grant Program. In 2016, the maximum amount of funding through 
this program was set at $87 million nationwide. Of course, an 
increase in funding would allow transit operators to pursue 
larger capital security projects. We are also very appreciative 
of the efforts underway to extend grant duration periods from 
three to five years, which can allow us to complete larger and 
more complex security enhancements.
    In closing, I would like to thank the members of this 
subcommittee and our congressional delegation for their 
dedicated, unwavering, and continuing support that allows us to 
better serve our employees and customers and to better protect 
our regional critical transportation infrastructure and 
perhaps, most importantly, all those that depend upon it.
    Thank you so much.
    [The prepared statement of Mr. Belfiore follows:]

    Prepared Statement of Thomas Belfiore, Chief Security Officer, 
             The Port Authority of New York and New Jersey
About the Port Authority
    The Port Authority of New York & New Jersey conceives, builds, 
operates and maintains infrastructure critical to the New York/New 
Jersey region's transportation and trade network. These facilities 
include America's busiest airport system, including: John F. Kennedy 
International, LaGuardia, and Newark Liberty International airports, 
marine terminals and ports, the PATH rail transit system, six tunnels 
and bridges between New York and New Jersey, the Port Authority Bus 
Terminal in Manhattan, and the World Trade Center. For more than ninety 
years, the Port Authority has worked to improve the quality of life for 
the more than 18 million people who live and work in New York and New 
Jersey metropolitan region.
The Office of the Chief Security Officer
    Created in 2012, the Office of the Chief Security Officer (OCSO) is 
a department within the Port Authority and is responsible for providing 
the highest quality public safety, facility security operations, 
security program management, emergency management, and airport rescue 
and firefighting training and services. Together, over 2,000 employees 
ensure the security and safe movement of the Port Authority's 
customers, partners, employees, and stakeholders every day.
I. Port Authority New York and New Jersey Transportation Assets
    The Port Authority builds, operates, and maintains critical 
transportation and trade assets that fall under our five (5) lines of 
business:

  <bullet> Aviation

  <bullet> Rail

  <bullet> Tunnels, Bridges and Terminals

  <bullet> Ports

  <bullet> Commercial Real Estate

    Our aviation assets include six (6) airports: John F. Kennedy 
International Airport, LaGuardia Airport, Newark Liberty International 
Airport, Teterboro Airport and Stewart International Airport. In 2015, 
Port Authority airports moved an estimated 124 million passengers.
    Our rail and surface transportation assets include the Trans-Hudson 
Rail System (PATH), George Washington Bridge, Bayonne Bridge, Goethals 
Bridge, Outerbridge Crossing, the Port Authority Bus Terminal, George 
Washington Bridge Bus Station, Journal Square Transportation Center, 
Holland Tunnel and Lincoln Tunnel. In 2015, the PATH system carried 
over 76.5 million passengers; an average of 265,000 passengers per day. 
Additionally, over 115 million vehicles travel over PA's bridges and 
Tunnels annually.
    Port Authority also manages ports that transport vital cargo 
throughout the New York and New Jersey region. The Port of New York and 
New Jersey is the largest on the east coast and in 2015 moved over 3.6 
million cargo containers.
    The Port Authority also owns and manages the 16-acre World Trade 
Center site, home to the iconic One World Trade Center.
    The transportation sector and critical infrastructure assets remain 
as the most attractive targets of terrorists' organizations and lone 
actors; particularly acute are the Port Authority of New York and New 
Jersey assets, as we operate the Nation's largest airport system, the 
busiest Bus Terminal and most traveled bridge (GWB) in the nation, and 
the east coast's busiest ports. Outlined below are the tools and 
strategies we deploy to ensure our assets and the people who rely on 
them are safe and secure.
II. Our Multi-Layered Approach to Securing Our Assets and Protecting 
        the Public
    The tragic events of September 11, 2001, remain the single most 
important turning point in the role of security within the Port 
Authority. Since that time, the Port Authority has spent close to $9.9 
billion on operational and capital security measures. These 
expenditures were guided by a robust risk-based, intelligence-driven, 
multi-layered security approach to protect the Port Authority's 
customers, the general public, employees, and critical infrastructure 
by developing, implementing, and managing programs that preserve life 
and property, increase safety and security, and support the Agency's 
business objectives by strengthening our resilience and continuity of 
operations. With these measures in place--there is no single point of 
failure. Our multi-layered approach is explained in detail below.
Intelligence-Led
    The Port Authority Police Department (PAPD) implements 
intelligence-led policing to ensure our resources are effectively 
deployed to prevent potential threats to our customers, employees, and 
facilities. The PAPD has presence in 28 Federal, state, and local law 
enforcement task forces, to include: the Federal Bureau of 
Investigation Joint Terrorism Task Force (FBI JTTF) in New York and New 
Jersey which allows for shared intelligence across many agencies; the 
New York and New Jersey High-Intensity Drug Trafficking Areas (HIDTA) 
taskforce and the New Jersey State Police Regional Operations 
Intelligence Center (ROIC) that allows for the immediate exchange of 
important, timely and actionable intelligence for both sides of the 
Hudson.
    Additionally, we have a stakeholder representative assigned 
fulltime to the New York Police Department's Lower Manhattan Security 
Initiative. This unit is a key provider of day-to-day actionable 
intelligence relative to routine conditions like large events and 
demonstrations to current and emerging threats.
    These combined resources result in the agile, flexible, effective 
and efficient deployment of security and law enforcement resources that 
are responsive to current and developing threats and conditions.
Risk Assessments
    As the owner and operator of multi-modal transportation assets, it 
is critical that the allocation of human and financial resources across 
our various facilities be determined using a risk-based approach. To 
that end, all-hazards risk assessments are performed on a regular basis 
to better understand changes in threats and vulnerabilities related to 
our facilities. Our periodic multi-hazard assessments look across all 
Agency assets and prioritize our risk to inform security and resource 
decisions across all of our transportation assets.
Police Interdiction Activities
    The PAPD is comprised of over 1,900 uniformed police officers 
operating across thirteen (13) Port Authority facilities. The 
department also includes a Criminal Investigations Bureau, Special 
Operations Division, which includes an Emergency Services Unit and a 
Canine Unit (K-9), and an Aircraft Rescue and Firefighting component at 
the Port Authority airports.
    Through visible uniformed police presence and in partnership with 
other law enforcement agencies, the PAPD suppresses crime and utilizes 
counterterrorism measures to thwart potential adversaries seeking to 
cause harm or disruption by way of an attack. PAPD also deploys high 
visibility patrols and specialized services to enhance basic patrol 
functions utilizing intelligence-led policing concepts.
Operational Security Measures and Security Agents
    The Port Authority implements civilian security programs to 
supplement our police department activities and increase the levels of 
protection at our facilities. These programs safeguard Port Authority 
facilities from threats to physical infrastructure, unauthorized access 
to restricted areas, cybersecurity attacks, and breaches of protected 
security information.
    Security policies, procedures, and operating protocols are 
ingrained at each of our facilities. A foundational element of 
protecting our facilities is granting access to certain secure areas 
only to authorized persons, after extensive criminal history checks are 
conducted. At our airports, the Federal Secure Identification Display 
Area (SIDA) program is utilized. For our maritime facilities, the 
Federal TWIC program is in effect and we support efforts to make this 
program as robust and reliable as possible.
    We carry this model beyond where federally regulated to our other 
surface transportation facilities including tunnels, bridges, 
terminals, and rail facilities by requiring all third-party contractors 
and service vendors to undergo criminal history checks as well.
    Additionally, the Port Authority employs over 1,000 unarmed 
Uniformed Contract Security Agents to guard our facilities and keep our 
employees and customers safe.
Technology
    A critical element of a robust multi-layered approach is the 
development and maintenance of advanced technology systems to support 
both security and resiliency. Significant investments have been made in 
this area.
    We employ an agency-wide video surveillance system of more than 
6,000 Closed Circuit Television (CCTV) cameras with recording 
capabilities. Access control systems and alarming is in use at each of 
our facilities.
    Perimeter intrusion detection systems are deployed at our airports 
and a laser intrusion detection system is in use at PATH to detect 
intrusions into our under-river tunnels from the track area.
    Sensors and detection devices are in place in certain locations to 
help protect against chemical, biological and radiological threats.
    With regard to radio communications, the Port Authority has 
invested over $110 million to deploy an agency-wide Police intra-
operable 800 MHz radio system at all its facilities, enabling PAPD 
officers responding to an incident from a neighboring command (e.g., 
Holland Tunnel, Newark Airport, etc.) to talk seamlessly with other 
PAPD officers assigned to a different command. Further, we have 
deployed antenna networks carrying National Mutual Aid channels in both 
the UHF and 800 MHz bands (``UTAC and 8TAC'') into the PATH underground 
to assure radio inter-operability with our mutual aid partners, such as 
NYPD, FDNY, and the City of Jersey City first responder agencies.
    Lastly, we have created a new Cyber Security program to better 
monitor and respond to suspicious activities occurring on our network, 
therefore strengthening our capability to protect our critical 
information and industrial control systems. The Port Authority operates 
a 24/7 cybersecurity operations center that can receive alerts from our 
cyber defense tools and respond to threats to our network and 
equipment.
Engineered Hardening Solutions
    Since September 11, 2001, the Port Authority has made over $1.3 
billion in asset hardening investments. Although faced with the 
challenge of retrofitting security features into existing facilities, 
we have implemented a multitude of hardening solutions. At our aviation 
facilities, we have placed bollards at all terminal frontages, enhanced 
perimeter fencing, strengthened vehicular guard posts, and are 
protecting terminal glass.
    At our bridge facilities, we have protected suspension and main 
cables, strengthened the supporting towers, and created standoff to the 
bridge bases and piers from water-borne threats.
    At our PATH rail transit facilities, we have installed tunnel 
hardening and flood mitigation strategies, while also protecting key 
rail support facilities with bollards, cameras, and access control.
    At our maritime facilities, we have installed access control and 
CCTV systems, systems to allow for Port-wide emergency notifications, 
and enhancements to aid in evacuation of the Port. We continue to 
partner with Federal agencies in the piloting of state-of-the-art 
radiation detection technologies.
Office of Emergency Management
    The Port Authority enhances resiliency, response, and recovery 
through our Office of Emergency Management (OEM). The OEM champions 
programs that provide the Port Authority with the resources, support, 
and capabilities to prepare for, respond to, recover from, and mitigate 
against all-hazards. The OEM is organized into three core mission 
areas:

        Emergency Management. Supports the Incident Command response 
        structure at Port Authority during events or incidents. 
        Additionally, responsible for all-hazard planning and training 
        for agency personnel and regional partners who will support our 
        response activities to emergencies at our facilities located in 
        New York and New Jersey. Through the use of tabletop and full-
        scale exercise, over 27,000 Port Authority staff and regional 
        partners have been trained on such topics as Active Shooter 
        response, PATH rail emergencies, terror attacks and other 
        hazards.

        Grant Management. Administers and manages all Federal and State 
        Homeland Security Grants that allows us to harden our assets, 
        invest in technology, initiate new programs, and provide for 
        enhanced police protective services.

        Risk Management and Resiliency. Responsible for coordinating 
        and implementing the agency-wide all-hazard risk assessment and 
        oversees the Port Authority Business Continuity program.

    These programs are regularly adapted to meet the needs of the Port 
Authority with an impact range that stretches from individual employee 
preparedness to agency-wide, corporate-level resiliency.
Federal, State, and Regional Partnerships
    The Port Authority understands the importance of maintaining strong 
relationships with our Federal, State and local partners. These 
cooperative partnerships are integral to our intelligence, 
counterterrorism, cybersecurity, technology, and training efforts. The 
support received through these partnerships helps us better secure our 
assets and the information exchange is mutually beneficial to all 
partners.
Measuring Effectiveness and Performance Assurance
    In order to maintain a prepared, unified, and accountable security 
operation, the Port Authority regularly measures, audits and inspects 
programs and systems. This practice instills a culture of evaluating 
the effectiveness and integrity of our systems and program performance. 
The OCSO also maintains its own Quality Assurance Inspections program 
that evaluates the physical protection strategies employed at the Port 
Authority. These internal auditing programs allow us to proactively 
identify and mitigate issues and concerns before our adversaries 
exploit them.
    Furthermore, in an effort to ensure independent third party review 
of our security programs, the Port Authority actively participates in 
the U.S. Department of Homeland Security (DHS) Safety Act program. To 
date, Port Authority received six (6) awards for designation and one 
(1) for certification at various facilities.
    For 2015, TSA has awarded the PATH Security program its Gold 
Standard for best practices in rail security.
III. How the Federal Government Can help?
Grant Funding
    The Port Authority keeps security as a top priority as evidenced by 
the investments in resources it makes to that purpose. Currently, 
agency-wide, 24 percent of personnel and 22 percent of the operating 
budget is allocated to security. Since 2002, $1.3 billion has been 
spent in capital security projects and another $900 million in capital 
security projects have been identified for the coming years.
    The Port Authority does not receive any tax dollar support from New 
York or New Jersey and relies on agency generated revenues to support 
our operations and capital program. So much of those resources are 
claimed by maintaining our assets in a state of good repair. Therefore, 
making Federal grant funding programs even more important to our 
efforts to secure aging critical infrastructure from evolving threats.
    A large source of funds for our capital security projects comes 
from the Transit Security Grant Program (TSGP). In 2016, the maximum 
amount of Federal funding through this program was set at $87 million 
nationwide for all transit operators. This amount, when distributed, 
can only fund smaller capital security projects. An increase in TSGP 
funding would allow transit operators to pursue larger capital security 
projects that would better reduce the risk to those who use our 
facilities.
    We are appreciative of the efforts underway to extend grant 
durations to allow for delivery of complex security enhancements.
IV. Closing Remarks
    In closing, I would like to thank the members of the Surface 
Transportation and Merchant Marine Infrastructure, Safety and Security 
subcommittee for inviting me to testify on behalf of the Port Authority 
of New York and New Jersey.
    The Port Authority operates the busiest and most important 
transportation facilities in the region, as such, we take on the 
tremendous responsibility of maintaining safety and security. The Port 
Authority will continue to make enhancements to its policing and 
security programs and systems in an effort to stay current and adapt to 
the ever-changing threat landscape. I would like to thank our 
congressional delegation for their continuing support that allows us to 
better serve our employees and customers and better protect our 
regional critical transportation infrastructure.

    Senator Fischer. Thank you, sir, and my thanks to you and 
all your officers for the work you do daily to protect 
thousands and thousands of Americans and keep us safe. Thank 
you.
    Mr. Belfiore. Thank you, ma'am.
    Senator Fischer. To begin with the first round of 
questions, I'd like to explore cybersecurity. We heard two 
gentlemen bring up cybersecurity in their comments, and I think 
that's something that this committee is interested in, and a 
number of other committees here in the Senate are as well. I 
serve on the Armed Services Committee, and cybersecurity is a 
big topic that we are looking at as well.
    So, Mr. Straquadine, in your testimony, you mentioned the 
growing concern with cybersecurity. Could you elaborate a 
little bit upon that and how not only you work with the Federal 
Government but if that partnership is open and beneficial, but 
also how you work with other private entities and if you are 
able to share information back and forth in order to better 
combat the threats that are out there?
    Mr. Straquadine. Thank you, Chairwoman. Certainly, we work 
with the agencies--TSA with the responsibility for oversight--
but we were approached specifically by Federal Energy 
Regulatory Commission Chairman Bay. He had stood up a team of 
Office of Energy Infrastructure Security that had the 
expertise. They do have regulatory oversight for the electric 
utilities. They had done these reviews within the utility 
world.
    We were one of the first pipelines to welcome them in, with 
TSA, to do this review, because we knew we could learn from 
that. There are many things you know and many things you don't 
know. The cyber world is ever-changing. So it was one that--
coming in with that review--that was well defined up front as a 
collaborative, non-regulatory approach.
    It was one that we shared--or we brought down our 
information systems experts. Our CEO sat at the table for two 
days to review this information, because, ultimately, he needs 
to make the budget decisions to our board. And from that side 
of things, it was very positive. In fact, I had my information 
security team come to me and say, ``That was the best thing 
we've ever done,'' because we could identify the immediate and 
near-term threats and develop a plan and budget related to 
that.
    We also monitor the information security side that the TSA 
has as far as their computer centers, or ICS-CERT centers, that 
are available from a point of view of what's threatening 
industry, in general, and we do share within our industry 
within the INGAA association. We've done a----
    Senator Fischer. When you receive a threat, when you 
anticipate a threat, when you hear chatter that's out there of 
possibilities of a threat to your infrastructure, you're able 
to share that with other companies?
    Mr. Straquadine. Yes, we are.
    Senator Fischer. And do you also share that with the 
Federal Government?
    Mr. Straquadine. I believe we do through the ICS-CERT 
process. We have not had that specific threat. We've recognized 
no incremental or unique threats to our industry sector to 
date. But we're aware, and we will utilize that process as 
necessary.
    Senator Fischer. And in your testimony, you said that the 
TSA clearly acknowledged that they had much to learn in the 
cybersecurity realm. What advice would you give to the TSA, and 
what advice would you give to this committee about what the 
priorities should be with regard to cybersecurity?
    Mr. Straquadine. I believe the approach of collaboration 
with companies to review their cyber approach with experts in 
the field--and, clearly, that's where the FERC team has 
demonstrated that expertise and has been supportive of doing 
this effort, again, collaboratively reaching across to the 
agency at TSA. It's unique, as I understand it, in the 
government, but it's one that has worked well, at least from 
what we've perceived and experienced, and what we've encouraged 
our industry to participate in as well.
    Senator Fischer. Thank you.
    Mr. Spear, you in your comments just briefly stated that 
you would like to discuss cybersecurity and would take any 
questions. So I'm giving you that opportunity.
    Mr. Spear. Certainly. I'd look at the trucking industry as 
quite vast. It's becoming much more integrated as we adopt 
electronic logging devices. The ability to manage fleets 
nationwide, track them, manage them in a safe and productive 
manner requires technology, and that technology is also in the 
backbone of a network that could be vulnerable.
    We've had instances of ransom ware, servers held for 
ransom, stolen customer data. We've had instances where we've 
done tests on the ability to access a commercial vehicle's 
brakes and accelerators. I know this committee has focused a 
lot of time----
    Senator Fischer. You said you did a test on that. That has 
been----
    Mr. Spear. There have been researchers at the University of 
Michigan that have done a test to determine the ability to hack 
into an industrial vehicle's accelerator and braking system. So 
our industry is very focused on this issue, like the auto OEMs. 
I know there has been a lot of attention on this committee 
given to the autos, seeing that there have been instances where 
vehicles have been hacked and control has been taken externally 
from the driver. Imagine that happening to an 80,000-pound 
commercial vehicle. That's something we certainly want to 
avoid.
    We're obviously watching very closely the autonomous 
debate. It's an issue that we are coming to the table on. As an 
industry working with our OEMs, our software providers, our 
equipment providers, we see great promise to safety and 
environment--less fuel burned, less congestion, driver 
retention. There are a lot of benefits that could come out of 
this technology.
    But I think cybersecurity certainly is a question that we 
believe needs to be answered up front. We're watching very 
closely what the FCC does in terms of rewarding seven channels 
of safety spectrum. We would like to see all seven channels go 
to safety, not shared spectrum with Wi-Fi users. We don't feel 
that that's something that we want to have compromised in the 
operation of any vehicle, including commercial vehicles. So 
this is a space where we believe we need to do more as an 
industry and be certain that any integration of our systems are 
not made vulnerable to outside interests and taken advantage 
of, either for data or the control, actually, of a commercial 
vehicle.
    Senator Fischer. Thank you very much.
    Senator Booker?
    Senator Booker. With your permission, Chairman Fischer, 
Senator Blumenthal has some conflicting commitments, and I 
would like him to go before me.
    Senator Fischer. Of course.

             STATEMENT OF HON. RICHARD BLUMENTHAL, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Thank you very, very much, Senator 
Booker. I appreciate that courtesy, and thank you to both you 
and the Subcommittee Chairwoman, Senator Fischer, for having 
this hearing.
    Before I begin, I really want to commend both of you for 
your leadership and your efforts as Chairman and Ranking Member 
of this committee in your work on the Surface Transportation 
and Maritime Security Act--very, very important advance. Sorry 
that it won't be passed during this session, but I think it 
gives us a template for the next session, and I'm hoping that 
we can bring it across the finish line next year.
    I also want to join in your remarks, Senator Booker, in 
effect, really lamenting the potential rollback that we see in 
the CR on trucking safety and fatigue rules, which is very, 
very unfortunate. I hope that we can remedy that point in the 
next session as well.
    And, finally, to echo your concern, Madam Chairwoman, on 
the issue of cyber, as a member of the Armed Services 
Committee, you'll recall that in our hearing recently with a 
number of very expert witnesses on emerging threats and 
national security, cyber was at the forefront, and both Senator 
McCain and I attended a briefing of the Senate United States 
Marine Corps Caucus, where the commandant's major concern, his 
priority, was, in fact, or is now cyber and the prospect of 
cyber attack and the need for cyber defense. So all of our 
systems, utilities, finance, medical, and transportation very 
much implicate the issue of cybersecurity.
    I want to ask a question that involves the TSA, 
specifically, the implementing recommendation of the 9/11 
Commission Act, which dates from 2007. That law required the 
Department of Homeland Security, through the TSA, to take 
rigorous, robust action to stem the tide of terrorist threats 
to transportation on our shores, including the surface 
transportation network.
    A lot of the focus has been on our skies and aviation 
security, but the law required TSA to complete a number of 
critical security mandates by August 2008 regarding rail and 
surface transportation. And to be very blunt, the TSA is 
nowhere near completing the necessary actions that will help 
protect rail stations, transit facilities, bus stops, and other 
critical points of transit and to prevent attacks on soft 
targets throughout our surface transportation network.
    There are three specific areas of concern that I have: 
number one, ensuring high-risk target railroads have sufficient 
security plans; number two, training, ensuring that public 
transportation agencies, railroads, and bus providers have 
training standards on security threats for their frontline 
employees; and, number three, vetting, ensuring that public 
transportation agencies and railroads conduct rigorous name-
based security background checks and immigration status checks 
on all frontline employees.
    TSA, unfortunately, has met none of these statutory 
requirements. They are legal requirements in our statutes. And 
I'm very concerned about this fact and have repeatedly demanded 
answers from TSA about when it's going to comply with the law, 
and the repeated answer has been, ``It's hard. It takes time.'' 
But in the meantime, what we see around the country and around 
the world is, in fact, attacks on the soft targets, whether 
they are the perimeters outside checkpoints at airports or some 
of our rail and rail facilities and threats to them.
    Mr. Roth, you share my many concerns, and in your 
testimony, you referred to the DHS as--I'm quoting--
``dismissive and lax,'' end quote, in implementing 
requirements. Is this particularly troubling after these 
attacks that we've seen at train stations and rail stations 
around the world, and how do we get DHS to take action?
    Mr. Roth. I share your concern with this, and certainly in 
my testimony--we put a chart in the back of my testimony that 
shows the delays that TSA has had, notwithstanding the fact 
that there have been numerous high profile rail attacks, 
starting, in fact, with the 2004 Madrid attacks, that were very 
concerning. The regulations that are required under the 9/11 
Commission Act are all very common sense, and it would really 
bring rail transportation on par with air transportation.
    An airport has to have a security plan that's approved by 
DHS. It seems common sense for railroads to have the same. 
Airport workers have to have a background check that includes 
terrorism screening. It seems very common sense that railroad 
workers would have to have this. We pressed TSA on exactly what 
the delay is, and we didn't get a good answer. We've got, I 
think, the same answer that you have received, which is that 
rulemaking is difficult. Yet they've made rules with regard to 
airports, and they've made rules with regard to seaports, but 
they somehow have not yet gone to surface. So I do share your 
frustration.
    Senator Blumenthal. And as you're aware--and Mr. Trugman is 
especially aware--Penn Station actually handles half a million 
passengers every day. Senator Booker and I are often among 
them, or at least he is a rider of Amtrak. I know I see him 
there all the time. But I go in and out of Penn Station, and I 
sometimes wonder when I do, whether the security is adequate. I 
see some of it there. There's no question that some of that 
security is visible in the form of police and K-9s. It's the 
busiest transportation hub in our country, busier than all 
three airports combined.
    My question to you, Mr. Trugman, is: Is Penn Station--
Amtrak owns it--really prepared?
    Mr. Trugman. We are prepared, and we work really well with 
our partners. It's a layered approach. All our employees are 
trained. All our passengers--you see the videos that we have 
when you're boarding the train. I thank you for your ridership. 
Those are all part of the training that we get through the DHS 
grant in our emergency corporate communications--corporate 
security administration which we have, the EMCS.
    You know, we work very closely with our NYPD, with the New 
York State Police, and all the law enforcement community. The 
intelligence that we get--because we're embedded in the JTTF in 
New York and the national JTTF--is vital to protecting that. 
The K-9 program is a very important part of that strategy, and 
our counter measures with the counter-terrorism units that we 
have is very--it's a layered approach, and we work well with 
that.
    Senator Blumenthal. And you would not disagree with Mr. 
Roth that those TSA regulations are important?
    Mr. Trugman. They're very important. But right now, we have 
a great working relationship with TSA. We have the VIPR teams 
that come to the stations, the FAMS that work in the stations, 
not only in New York but across Amtrak. We work really well 
with the Office of Intelligence for TSA. We're doing pilot 
projects with the TSA Office of Requirement Capabilities 
Assessment. We have an MOU with them. So we have a good working 
relationship with the TSA.
    Senator Blumenthal. I have a great working relationship 
with the TSA, too. I admire the dedicated individuals who work 
there, and I try to tell them all the time whenever I see them, 
in the airports, particularly, how much I appreciate their hard 
work. They are under-resourced, regulations are hard to do, and 
they do take time. I just want them to do that part of their 
job a little bit more expeditiously. But I share your respect 
for them.
    Thank you, Madam Chairwoman.
    Senator Fischer. Thank you, Senator Blumenthal.
    Senator Klobuchar?

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you very much, Madam Chairman, and 
thank you, Ranking Member Booker, for this hearing.
    The terror threat against the commuter rail station in L.A. 
yesterday reminds us that our transportation systems are still 
a target. In fact, in an article in 2014 in al-Qaeda and the 
Arabian Peninsula's terror recruitment magazine, Inspire, the 
magazine provided instructions on how to make a bomb using non-
metallic materials, how to bypass TSA security, and all of you 
know all too well, the threat that we face here. So that's why 
I appreciate this hearing.
    I want to take us a little away from where maybe most of 
the people have been focused on, and this is to the Canadian 
border, which borders my state. The Canadian National Railway 
border crossing just east of International Falls in Minnesota 
sees the most railroad cars of any crossing between the U.S. 
and Canada, and you know $2 billion of goods go back and forth 
between the two countries every single day and 350,000 
passengers.
    The improving economy and increased demand for imports and 
Canadian crude oil has created a rail bottleneck at our 
Minnesota-Ontario rail crossing. I've heard from my 
constituents about significant delays. Some of the trains are 
nearly two miles long and represent a challenge for people 
getting to work and emergency vehicles that need to pass.
    I guess I'd start with you, Inspector General. How is TSA 
working with other government agencies and local partners to 
address safety and efficiency, and what are some of the biggest 
challenges that TSA faces?
    Mr. Roth. Certainly, when it comes to ports of entry, 
particularly land ports of entry on the northern border, 
Customs and Border Protection has the lion's share of the role 
in ensuring the efficient transport of people and material 
across the border while at the same time maintaining security, 
and it is an enormous challenge. Having toured the northern 
border, including the Port of Detroit, which is also a very, 
very busy port----
    Senator Klobuchar. I've been there, yes.
    Mr. Roth. They have enormous challenges, both with 
manpower, with infrastructure, and the kinds of increases that 
are necessary as trade increases. So I'm deeply sympathetic to 
the CBP mission there and the challenges that they face. They 
seem to manage, but I understand that there are challenges.
    Senator Klobuchar. Right. Exactly.
    My next question is, I guess, for you, Mr. Belfiore, as 
well as the Inspector General. So what we passed last week, the 
Cross Border Trade Facilitation Act, was a bill that Senator 
Cornyn and I have led, which allows for public-private 
partnerships to help improve infrastructure and increase the 
number of Customs and Border Patrol inspectors at our land 
ports of entry. There is significant support in the House as 
well, and we believe this is going to become law. There have 
been trials, and now this would permanently allow for these 
partnerships.
    CBP has a $5 billion budget shortfall, and that's why we 
think engaging private partners to fill the gap for places 
where they see this need for extra commerce security is 
helpful. As I mentioned, we've got some major ports of entry in 
our state.
    Given budget constraints, I guess I would start with you, 
Mr. Belfiore. How do you think this legislation can best be 
used to improve transportation security at our ports of entry--
points of entry and ports?
    Mr. Belfiore. So in speaking to those that run the ports 
for the Port Authority of New York and New Jersey and 
particularly those who are interested in security--of course, 
we have a strong partnership with CBP and the U.S. Coast Guard 
in what we do in trying to secure the ports. We think that 
additional CBP presence is very important for the success of 
that security program that we have.
    In addition to that, there's also a business impact to the 
presence of CBP in addition to, first and foremost, security. 
It would allow for greater throughput and allow for probably 
more hours of operation that would accommodate the growth that 
the ports of New Jersey are currently experiencing.
    Senator Klobuchar. Very good. Just turning to my last 
question here on rail safety--and, by the way, I want to 
welcome Mr. Straquadine--thank you so much--with the Natural 
Gas Association of America, and Minnesota has a company. Thank 
you very much. We appreciate that.
    Mr. Straquadine. Thank you, Senator.
    Senator Klobuchar. We move more than a million barrels of 
oil by rail every day in Minnesota, and transporting hazardous 
materials can pose a significant risk to surrounding 
communities. And, of course, I hear concerns all the time from 
communities, Inspector General, about delays, but also about 
risks, and, of course, we've had some spills of not just oil, 
but biofuels and other things over the years in Minnesota, 
Wisconsin. I think people don't realize because of where we are 
how much traffic we get from North Dakota and Canada and other 
places.
    We pushed in the FAST Act to have provisions to help local 
governments to plan and respond to rail incidents. But I just 
wondered if you could give an update on what training or 
collaboration TSA is using with state and local security 
partners for derailments or hazardous spills.
    Mr. Roth. The authority for this is actually split between 
TSA as well as the Federal Emergency Management Administration, 
FEMA. FEMA focuses much on what would occur in a response sort 
of environment, and we have not looked at that specific issue. 
I know that the General Accountability Office is currently 
looking at how FEMA is doing through that kind of collaboration 
to determine whether or not they are prepared in the event of 
oil spills.
    I will have to say on the other part of it, the TSA part of 
it, the surface transportation part of what TSA does has been 
largely ignored by TSA. The focus has been almost exclusively 
on aviation security and, candidly, almost exclusively on 
checkpoint security, not even sort of insider threat kinds of 
security as well. So the kinds of things that they could do, 
they've missed the opportunities to do, including sharing 
intelligence, sharing best practices, the kinds of things that 
would prevent a spill from occurring in the first place.
    Senator Klobuchar. Right. So you're talking about best 
practices and more people at these locations, the facilities, 
which is what Senator Cornyn and I are trying to get at with 
our bill, when it comes to rail, is what you want to see.
    Mr. Roth. That's correct.
    Senator Klobuchar. Very good.
    Do you want to add anything--our local guy?
    Mr. Straquadine. I would just add that the challenge around 
transportation of energy by rail is overcome by long-term 
commitments to pipeline installations. While I represent the 
natural gas industry, specifically Alliance Pipeline, the fact 
is that oil by pipe is the safest, most efficient, and cost 
effective way to move energy from a producing region to a 
consuming or refining area.
    Senator Klobuchar. And we have, as you know, some major 
refineries in our state.
    Mr. Straquadine. Yes, we do.
    Senator Klobuchar. So some upgrades to the pipelines.
    Mr. Straquadine. We do have wonderful oversight by the 
Department of Transportation Pipelines Hazardous Material 
Safety Administration that we work collaboratively with, from 
our company's perspective, but much like we did in our 
cybersecurity review with TSA and FERC. We reach out to PHMSA 
to find best ways to learn how we can do things better and how 
we can encourage them to look at best practices as well.
    Senator Klobuchar. Thank you very much.
    Thank you, everyone.
    Thank you, Chief, as well.
    Senator Fischer. Thank you, Senator Klobuchar.
    Senator Booker?
    Senator Booker. Just really quickly, a small issue but very 
irksome, Mr. Belfiore. The Port Authority of New York and New 
Jersey--shouldn't it be called the Port Authority of New Jersey 
and New York?
    [Laughter.]
    Mr. Belfiore. I'll take that back, Senator.
    Senator Klobuchar. This is like Fargo-Moorhead should be 
called Moorhead-Fargo.
    Senator Booker. I just want to make sure to get that on the 
record, sir.
    Mr. Belfiore. Yes, sir.
    Senator Fischer. We need to make a lot of changes.
    Senator Klobuchar. Yes, we need to make some changes right 
here.
    Senator Booker. Yes, right now, on the record. Let the 
record reflect that he said he will go back and change that 
immediately.
    [Laughter.]
    Senator Booker. Look, I have, like the good Senator from 
Connecticut, a lot of respect for TSA and their workers. I 
interact with them on a regular basis as my course of travel. 
But, obviously, I'm very frustrated with some of the larger 
issues in regards to the TSA. The agency has stated for years 
that they use an intelligence-driven, risk-based strategy for 
transportation security. But a recent DHS Inspector General 
report found that the agency does not have a risk-based 
strategy across transportation modes. This is very concerning 
to me.
    So, in your opinion, Mr. Belfiore, what are the 
consequences for security for surface transportation, of the 
TSA not using a risk-based strategy?
    Mr. Belfiore. So, in being familiar with the IG's report 
and Mr. Roth's report, I think it includes many important 
recommendations. But, perhaps to me, the most important 
recommendation is the adoption of an intelligence-led, risk-
based strategy across all of the areas of responsibility for 
TSA.
    I think that it's something that our office and the Port 
Authority can wrestle with every day, as we are multimodal, and 
there are only so many dollars, and we compete with the 
importance of maintaining those critical assets and keeping 
them in a state of good repair and taking those same dollars 
and creating new development of very important transportation 
assets, and at the same time, we need to secure what we have. 
The best way to spend those precious dollars, we think, is with 
the intelligence-led, risk-based methodology that we have.
    So what it does for us is it looks for risks and threat and 
vulnerability. It looks at what's in place to defend those 
assets.
    Senator Booker. I'm sorry to cut you off. This is what 
frustrates me--and you are so gracious in being grateful to the 
Congress for the grants that you all get for security. But my 
opinion is that we are trying to do a lot with very little, 
because we're not allocating our resources based upon the 
threats to our country.
    More people travel the Northeast corridor by rail than they 
do by air. In addition to that, if you look at the targets in 
the greater New York area, which is the number one target, 
arguably, for terrorists--at least it's ranked that way by the 
Department of Homeland Security as a high-risk region--you 
understand--if you look at it in analysis of all the attacks 
being carried out globally right now, since 2001, more than 
1,900 attacks have been carried out against public 
transportation systems globally, resulting in 4,000 deaths, 
14,000 injuries. The attacks on metro stations, on rails--this 
year, the attack on the Brussels metro station killed more than 
a dozen people and injured more.
    If we look at the pattern of attacks, globally, right now, 
you're seeing them disproportionately focused on the 
transportation modes that you're charged with protecting. Yet 
the resources and the allocation of those resources are being 
put in a way that seems to be contrary to any evidence-based 
analysis of where we need to shore up these soft targets.
    So the persistent threat to rail, to public transportation, 
is not reflected in grant funding. In your opinion--and I know 
how grateful you are for the Federal grant funding you get--
does the current amount of grant funding reflect the need that 
your agency has for protecting vulnerable targets?
    Mr. Belfiore. Well, the short answer to that, Senator, is 
no.
    Senator Booker. OK. And I'm mindful of my time, but, to me, 
that really does turn us to your written testimony, which is, 
to me, just shocking. It's actually shocking, your testimony, 
to be able to say that we have a real problem, that we have 
resources being poured into protecting from the last terrorist 
attack, focusing on what has happened and not looking at the 
pattern of what the enemy is actually doing. To me, that is 
highly frustrating and alarming, that even when the 9/11 
Commission clearly states the problem, we have done nothing 
almost a decade later. Missing deadline after deadline, we've 
done nothing to effectuate it.
    Being that I savor my bipartisan relationship with Chairman 
Fischer, my time has expired. I'm going to stop and keep going. 
The graciousness of--let the record show that----
    Senator Fischer. He's on a roll.
    Senator Booker. So Congress actually passed legislation. I 
feel like we're being responsible. And you said this, again, in 
your testimony. We passed legislation about implementing the 9/
11 recommendations. So there were several requirements in law 
for TSA to issue regulations. This is astounding to me, that by 
law, they've been required to issue regulations that would 
provide direction to public transportation agencies, railroads, 
bus companies on security training for frontline transportation 
workers.
    Your review, Mr. Roth, is so alarming, and I just want to 
understand. I mean, I know what would happen, God forbid, if 
what we see happening in European nation after European nation 
were to happen here in the United States. But that's not what I 
want. I don't want to be able to have people say, ``I told you 
so.'' We need to get the job done and protect surface 
transportation. Eight years after a law was passed, 8 years, 
and the TSA has yet to issue proposed rules to implement the 9/
11 Commission's recommendations.
    So my first question to you is: What are the consequences, 
in your opinion, or potential consequences, of their lack of 
action? And your job as an IG is--is the TSA in any way back on 
track to implementing those regulations?
    Mr. Roth. To answer your last question first, they are not. 
They can't give us a date as to when even they will submit the 
regulations to OMB, which is, as you know, the first step in a 
process of a long rulemaking process. So it's not even out of 
the building yet for two of the most important of those 
regulations. So I share your frustration with that. And, 
really, what it is--it's illustrative of TSA, when they talk 
about being risk-based, what they're talking about is they risk 
base the passengers who come through screening. But they don't 
do any risk-based approach to anything else that they do as 
part of their job.
    To give an example, they have the Federal Air Marshal 
Service, which is a program that--the actual budget is 
classified, but it's in the hundreds of millions of dollars, 
multiple hundreds of millions of dollars for this program, for 
Federal Air Marshals to sit there to ensure that nobody enters 
a cockpit whose doors are locked. So the question is what risk, 
exactly, are they trying to counter here? And the cost of that 
program is astronomical.
    So why aren't they, as sort of an entity, taking a look at 
what are your threats, what is it we can do to counter those 
threats, and then let's build a budget that will actually make 
sense to counter those threats with programs that they put in 
place. They have not done that. So it is particularly sort of 
disingenuous for them to call themselves an intelligence-
driven, risk-based organization when, in fact, they are not, 
not only across modes of transportation, but even within air 
transportation.
    Senator Booker. So, I mean, this is--I don't understand why 
this sense of alarm is not greater in our country when, again, 
we're watching the attacks our enemy is doing in other nations. 
It's astonishing to me that we would--even the monies we are 
allocating are so misallocated in proportion to what the actual 
threats are.
    This is not being done in an intelligent manner. This is 
not being done in a systematic manner. It's not following 
Federal regulations. It's not following Federal law. I mean, 
I'm not sure if I'm seeing what seems to appear to me to be 
willful disregard for the security and the safety of our Nation 
by an agency so out of line, eight years out of line, with the 
Congressional mandates.
    You've been in this business for a long time. Give me some 
recommendation about what Congress could be doing to get this 
agency on track to protect the American people.
    Mr. Roth. I wish I had some sort of silver bullet for you. 
I think it's continued oversight, as I said in my testimony, by 
the Congress, by my office, by the Government Accountability 
Office. I don't have any good answers for you.
    Senator Booker. You know, the people to your left, sir, 
from the private industry to the sworn officers--they go out 
there every single day, trying to protect Americans. You know, 
I don't always agree with industry, as you heard from the 
beginning. But, dear God, they're trying to keep their product 
safe and people safe. And I see this from what happened in 
Elizabeth, from what happened in Manhattan, that the threat 
isn't gone. People are plotting right now, right now, against 
this country, and we can't even make an intelligent allocation 
of the assets we have and, arguably, from the documents that 
you produced, are wasting millions of dollars, as you said, 
with the security at doors, for a problem that could be solved 
on a fraction of the cost and that money reinvested into 
principal targets.
    So I don't need another round. The last question I have, to 
shift a little bit--Chief, I worry about--obviously, I'm a New 
Jersey Senator, and I've seen what happened on 9/11, literally 
watching it with my own eyes from where I stood in Newark, and 
I worry about critical infrastructure not having redundancy.
    So it has been billed as an infrastructure project, the 
rail lines across the Hudson, the ones that are now crumbling, 
in one of the most critical economic arteries of our country--
20 percent of our GDP in this region. Just for--quickly, 
because I'm definitely treading on the grace of my colleague--
can you just--and this will be my final question. Why are those 
tunnels not just important for infrastructure and the flow of 
commerce and goods, but why are they important for the security 
of the region?
    Mr. Trugman. Well, they're very important. And, as you, I 
was a young kid growing up in Brooklyn, New York, and watched 
the building of those two towers. I never thought I'd watch 
them crumble as a D.C. police officer. So I changed my whole 
aspect in law enforcement that day.
    The Gateway project and the tunnels they have now--we do--
again, I'll reference my layered approach. We have a layered 
approach where we do right-of-way patrol to protect those 
tunnels and the infrastructure that goes into Manhattan from 
New Jersey. We have worked with our partners in Amtrak, with 
the Emergency Management And Corporate Security office for 
video systems, intrusion systems. We work very closely with our 
partners. I can't stress that enough, from everything--I have a 
detective assigned to the New Jersey Fusion Center. I have 
detectives assigned to the JTTFs, as I testified. We work with 
our partners at the New Jersey-New York Port Authority Police 
Department, the New Jersey Transit Police, the New Jersey State 
Police--just about every jurisdiction you can imagine.
    Together, that's what keeps us safe, because we all work 
together. We host meetings--the Northeast Corridor Coalition 
with the intelligence groups from every jurisdiction, 
basically, now, from Washington to Boston, to discuss what 
we're seeing and what we need to prepare for. So I am confident 
what we're doing is everything we possibly can do right now, 
because the infrastructure, not just the tunnels, but the 
bridges, are very concerning.
    We work with the marine units from the New Jersey State 
Police, from the D.C. Police Department to check some of the 
bridges here in the city, and the aviation units. We've talked 
to our aviation partners in the military and the police 
departments to look out for our tracks. It's a simple--I get a 
call from an aviation pilot who says, ``What do I look for?'' I 
say, ``Anybody who's not wearing a hard hat or an orange jacket 
or an orange shirt doesn't belong there.'' So it's that simple, 
and that's what we do.
    Senator Booker. Thank you, sir.
    Thank you, Madam Chairwoman.
    Senator Fischer. Thank you, Senator Booker. I'm going to do 
a little cleanup if that's OK with you.
    Mr. Roth, to follow up with my colleague's line of 
questioning and his expressed frustration, do you think that 
the TSA is even structured correctly? Do you have any comments 
on that?
    Mr. Roth. We haven't looked at that as a specific issue. I 
know that, historically, before the current administrator of 
TSA was there, it was a fairly stove-piped organization. 
Certainly, when we looked at ground transportation security, it 
seemed that that was stove-piped. In other words, there's a 
Chief Risk Officer who is supposed to be looking at risk 
enterprise-wide. We were able to show him documents, TSA 
documents, that he had never seen before with regard to ground 
transportation risk.
    So there are certain stove pipes certainly within TSA. We 
don't have any recommendations as to how to fix that, at least 
in these reports.
    Senator Fischer. Thank you.
    Mr. Spear, some questions for you. In your written 
testimony--and to follow up what Mr. Roth was talking about 
right now with security at airports--you mentioned that the DOD 
allows workers to transit in and out of military facilities 
with their TWIC in lieu of additional credentials. Do you think 
that's secure, first of all? And, second, how does it affect 
efficiency?
    Mr. Spear. Well, I do think it's secure. I actually had a 
common access card with the DOD for a number of years. I've 
used it all over the world, used it in the green zone in Iraq. 
It's a phenomenal ID. It's great protocol, great command 
control over the system. It's an outstanding example of how to 
get it right.
    Now, why we can't do the same thing with TWIC is beyond me. 
I can tell you that after we left Iraq, the Iraqi government 
adopted the same ID system that common access card utilizes. 
This is my ID for the green zone, Iraqi ID, same chip, same 
biometrics, same credentialing, and same protocol. Now, I would 
argue that the Iraqi government is not a bastion for 
efficiency, but why they are doing it better than TWIC is 
beyond me.
    So I think it's a living example of why--you know, to have 
to wait 15 years since MTSA was enacted, 9 years since the TWIC 
rule became final and effective, and we still have to wait two 
more years for the reader rule to become final--I mean, how 
long does it take to do an ID card?
    Senator Fischer. You have a lot of different credentials 
that drivers have to go through. I've got a list here. You've 
got the TWIC. You've got the HME, which is hazardous material 
endorsement. You have the free and secure trade.
    Mr. Spear. That's correct.
    Senator Fischer. Do drivers need all those? What is it like 
for a driver to have to go through that process in time and 
energy and cost? And let's get back to what we're worried about 
here with security. Does it take all of these cards to make a 
driver more secure?
    Mr. Spear. In our opinion, no. As I said earlier, I think 
protecting the homeland, to have a system that's seamless yet 
secure--we've proven it. The common access card proves it. We 
have living examples. We have other agencies like DOD that 
allow TWIC to be used on base. Now, if we're allowing drivers 
to access military installations with a TWIC card, I can't 
understand why TSA can't get past this impediment and use it 
seamlessly across the board for all MTSA facilities. It just 
doesn't make any sense to me.
    Our drivers, for instance, are frustrated by it. Right now, 
they do need all these IDs. We would argue that they should 
have one, and that it should be seamless, and it's proven that 
it can be done securely. Our drivers--you know, to go through 
the process to obtain an HME or a TWIC card--it takes time, and 
if you put yourself in the role of a driver, they're out 
driving. That's their job. So to take time to go to an 
enrollment center and to go through this process is taking them 
out of a situation where they're earning money and going 
through this process to obtain the credential.
    It has gotten more efficient, I will say. Since we last 
testified before the Senate in 2014, the cost has come down, 
the enrollment centers are much more widespread, and the time 
that it takes, from 6 to 8 weeks, has actually been reported in 
the field as a little more than two weeks in many instances. So 
there are some pockets of improvement, but it's not across the 
board.
    I would also say that when they go to the enrollment 
centers, there's a lack of parking. For a truck driver, that's 
also a problem. So we have a truck driving parking problem 
nationwide already, especially in the Northeast Corridor. These 
enrollment centers don't accommodate that, either. So there are 
a lot of impediments that they have to go through to get that.
    But I think the real underlining thing that I would say is 
that we have a chronic driver shortage. So for carriers that 
are trying to get drivers to move hazardous cargo and go to 
these particular sites that require multiple credentialing, 
it's very problematic, very disruptive to their business, very 
disruptive to the customers and to commerce, in general. So 
these are impediments that I believe could easily be solved if 
we'd just adopt TWIC universally.
    Senator Fischer. Thank you, Mr. Spear.
    Senator Booker, did you have other questions?
    Senator Booker. Besides reminding Chief Trugman that when 
he talks about New York-New Jersey transportation, it's not the 
tunnels that go into Manhattan. It's actually the tunnels that 
go into New Jersey, sir. So you should prioritize that 
understanding.
    [Laughter.]
    Mr. Trugman. I stand corrected.
    Senator Booker. Thank you very much, sir.
    Senator Fischer. I see a common thread here today going 
through.
    Senator Booker. It's true. These New Yorkers don't 
understand. But even their football teams don't play, actually, 
in New York. They play in New Jersey, which is God's country, 
sir.
    [Laughter.]
    Mr. Trugman. There's only one team that actually plays in 
New York right now, and that's the Buffalo Bills.
    Senator Booker. Yes, yes. I'm glad you understand that. 
Thank you, sir.
    Senator Fischer. Thank you, Senator Booker.
    I would like to note that the hearing record will remain 
open for two weeks, and during that time Senators are asked to 
submit any questions for the record. Upon receipt, the 
witnesses are requested to submit their written answers to the 
Committee as soon as possible.
    With that, I would like to thank all of you for being here 
today. I appreciate you taking the time to offer us some 
valuable information.
    The hearing is adjourned.
    [Whereupon, at 4:10 p.m., the hearing was adjourned.]

                            A P P E N D I X

     Response to Written Question Submitted by Hon. John Thune to 
                             Hon. John Roth
    Question. How is TSA progressing towards a risk-based strategy for 
non-aviation transportation systems. Your September 9 report identified 
TSA's deficiencies in this area and made several recommendations. I 
concurred with your concerns and in September introduced the Surface 
Transportation and Maritime Security Act which would require TSA to 
develop a risk-based strategy. Have you seen progress from TSA in 
developing a strategy that first identifies the risks and then 
determines the proper funding levels?
    Answer. On November 21, 2016, TSA provided us with an update on the 
actions it has taken to address the recommendations in our report, TSA 
Needs a Crosscutting Risk-Based Security Strategy (OIG-16-134). TSA 
indicated that it expects to complete a risk-based security strategy 
that encompasses all transportation modes in the fourth quarter of FY 
2017. TSA is also taking steps to integrate enterprise risk management 
with resource planning and expects to complete this process by December 
31, 2020. We will continue to monitor TSA's progress on addressing our 
recommendations.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Deb Fischer to 
                             Hon. John Roth
    Question 1. Mr. Roth, you referenced the 9/11 Act and that TSA has 
not fulfilled several rail security directives, including identifying 
high risk carriers. Has the TSA indicated its intention to carry out 
these directives and strengthen rail security?
    Answer. On November 29, 2016, TSA provided us with an update to the 
recommendations we made in our report, TSA Oversight of National 
Passenger Rail System Security (OIG-16-91). TSA has designated the 
rulemakings as high priority and indicated it is making progress. On 
December 16, 2016, TSA published two rulemakings in the Federal 
Register:

  <bullet> Notice of Proposed Rulemaking for Security Training for 
        Surface Transportation Employees and

  <bullet> Advance Notice of Proposed Rulemaking for Surface 
        Transportation Vulnerability Assessments and Security Plans.

    TSA anticipates a Notice of Proposed Rulemaking for surface 
security vetting by the end of 2017.

    Question 2. There are concerns about the GAO's recommendations for 
``alternative'' credentialing methods, including the potential for a 
decentralized system (whereby each entity have their own port security 
systems). Can you elaborate further on these concerns?
    Answer. We did not review ``alternative'' credentialing methods in 
our audit, TWIC Background Checks are Not as Reliable as They Could Be 
(OIG-16-128). However, during site visits at two ports, we observed 
that port workers were required to have a valid TWIC as well as airport 
issued credential to access certain port areas. We believe there could 
be increased security risks if TSA adopts ``alternative'' credentialing 
methods because the Department would have to provide oversight to 
ensure the decentralized credentialing methods meet minimum security 
requirements.

    Question 3. What are your thoughts on the United States Coast 
Guard's (USCG) August 2016 final rule that will require high-risk 
category facilities and a vessel to incorporate an electronic TWIC 
validation process, which includes a biometric check for high-risk 
category facilities and a vessel, prior to entry into a secured area?
    Answer. The final rule was published after we completed our audit 
field work. Additionally, TWIC implementation at facilities and vessels 
was outside the scope of our review, which focused on the TSA 
background check process. GAO identified in its 2011 audit that unless 
TSA strengthens its background check process, there is a risk that 
someone can access a secured area with a fraudulently obtained TWIC 
card whether or not the facility uses a card reader. We agree with 
GAO's assessment.

    Question 4. The August 2016 TWIC reader rule also states that, 
while not required, a maritime operator can utilize electronic TWIC 
inspection on a voluntary basis if they feel that this provides an 
additional level of security protection--and many have chosen to 
incorporate TWIC electronic readers into their USCG facility security 
plans. Are you seeing the biometric check being utilized beyond the 
category facilities that will be subject to USCG Final Rule?
    Answer. Voluntary use of electronic card readers was outside the 
scope of our audit. We attempted to obtain a listing of all facilities 
that use electronic card readers for background informational purposes 
only; however, USCG officials told us they were unable to provide that 
information. We may pursue this topic during a future audit.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Cory Booker to 
                             Hon. John Roth
    Question. The Federal Government has a vital role in ensuring that 
freight flow is not inhibited by a lack of security resources.
    In order for our ports to perform efficiently, U.S. Customs and 
Border Protection (CBP) must be adequately funded and staffed. In 2015, 
when CBP was last funded to hire additional staff, only 20 of 2,000 
staff were assigned to seaports. In addition to the obvious 
implications for homeland security, this is also a supply chain 
problem. When vessels cannot efficiently move through the customs 
process, the delays can ripple throughout our Nation's supply chain.
    Although there is no single solution to port congestion, the gap in 
Federal investment is an issue that we have the ability to address.
    What can Congress do to better match resources with the need to 
secure our supply chain?
    Answer. To determine CBP resources is a complex process. CBP uses a 
three-pronged resource optimization strategy for improving port 
operations. The workload staffing model is used to identify CBP's 
staffing needs at ports of entry. The model takes into account 
operational data from CBP information technology (IT) systems, as well 
as information that program offices provide. CBP uses workload staffing 
model results in its budget requests to increase user fees and request 
additional staff. In 2014, we issued a report on CBP's workload 
staffing model, U.S. Customs and Border Protection's Workload Staffing 
Model (OIG-14-117), where we reported that the workload staffing model 
methodology is sound, but the data from more than 25 IT systems used in 
calculations may not be reliable. This calls into question predicted 
staffing needs and shortages. We recommended CBP catalog, track, and 
validate all data sources; and independently verify and validate 
version 2 of the workload staffing model after its completion, to 
ensure that it satisfies CBP's requirements and functions as CBP 
intended. We are monitoring CBP's implementation of the recommendations 
and expect completion by January 31, 2017.
    To help mitigate staffing and other resource shortages, CBP relies 
on technology for screening cargo shipments. Specifically, it uses the 
Automated Targeting System to review, identify, and select cargo 
shipments that pose a possible threat to national security. 
Additionally, CBP relies on cross-agency coordination efforts to make 
the supply chain more efficient. Our report, CBP's Houston Seaport 
Generally Complied with Cargo Examination Requirements but Could 
Improve Its Documentation of Waivers and Exceptions (OIG-15-64), 
included recommendations that have strengthened controls in identifying 
high-risk cargo shipments. CBP has also implemented recommendations in 
OIG report, Inspection of U.S. Customs and Border Protection Miami 
Field Office Ports of Entry (OIG-15-13) to improve Miami Field Office 
Port of Entry operations for passenger screening, agriculture 
safeguarding operations, and cargo targeting.
                                 ______
                                 
     Response to Written Question Submitted by Hon. John Thune to 
                              Neil Trugman
    Question. Chief Trugman, will you discuss the security challenges 
of the open environments we see in train stations and what TSA is doing 
to help you ensure the safety of the traveling public?
    Answer. Surface transportation as a whole remains an ``open'' 
environment because it provides a functional service for millions of 
rail passengers and mass transit commuters. Because of the volume and 
daily use of these systems, the maintenance of accessible and efficient 
surface transportation is an essential requirement for the travel needs 
of the public for the present and the future. Multi-modal, major Amtrak 
stations like New York, Washington D.C., Philadelphia and Chicago alone 
are utilized by hundreds of thousands of passengers, patrons and 
members of the public each day. Surface transportation and its ``open'' 
environment is, therefore, a key part of this Nation's infrastructure.
    Protecting Amtrak's passengers, employees, patrons and 
infrastructure is challenging. The Amtrak Police Department relies upon 
a three pronged security philosophy--Prevention, Partnership and 
Participation. Through these prongs, the Amtrak security platform is 
established and developed through corporate security plans, Amtrak 
Police deployments, collaborations with federal, state and local law 
enforcement stakeholders, training and public outreach programs. The 
Partnership prong, by necessity, is extremely important to Amtrak 
because of its Federal mandate to operate an intercity rail system that 
covers 500 communities in 46 states.
    With TSA, Amtrak has found one of its most reliable partners to 
help keep ``America's Railroad'' safe. Amtrak continues to consider our 
relationship with TSA as good and supportive of the security strategy 
that Amtrak employs. The following are examples of the types of regular 
and ongoing support that TSA provides to Amtrak:

  <bullet> Provision of TSA National Screening force personnel on a 
        regular basis to major Amtrak stations to supplement Amtrak's 
        random and unpredictable baggage screening program

  <bullet> Use of FAM personnel to support undercover and surge 
        operations

  <bullet> Seminal Partner in RAILSAFE program

  <bullet> APD participates in the TSA Mass Transit Peer Advisory Group 
        (PAG) as part of one of the Sector-Specific Government 
        Coordinating Councils created under the NIPP

  <bullet> Daily exchange of intelligence and information sharing with 
        TSA-OI and the APD AIT

  <bullet> Identification of potential security risks and improvements 
        through TSA BASE program

  <bullet> Participation and support of TSA through HSEEP Exercise 
        programs and training

  <bullet> Strong programmatic relationship for coordination and 
        support of IPR Grant/CA and NECDT programs

  <bullet> Relationship with TSA as a Mass Transit Test Bed agency

  <bullet> Cooperative approach on 49 CFR 1580 compliance regulations
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Deb Fischer to 
                              Neil Trugman
    Question 1. What are your thoughts on the United States Coast 
Guard's (USCG) August 2016 final rule that will require high-risk 
category facilities and a vessel to incorporate an electronic TWIC 
validation process, which includes a biometric check for high-risk 
category facilities and a vessel, prior to entry into a secured area?
    Answer. Amtrak must qualify this response with the fact that it is 
not typically under USCG regulation and for the most part is not 
covered by TWIC regulations. As a result, Amtrak's experience is very 
limited. Since the USCG final rule on mandatory use of electronic TWIC 
validation process is defined to specific areas--facilities or vessels 
with certain dangerous cargo (CDC) or with 1,000 or more passengers--it 
would not seem to apply to Amtrak on most occasions even if such 
regulations were applicable.
    Amtrak would agree generally, however, that use of a biometric 
check would increase the security levels of a facility or vessel.

    Question 2. The August 2016 TWIC reader rule also states that, 
while not required, a maritime operator can utilize electronic TWIC 
inspection on a voluntary basis if they feel that this provides an 
additional level of security protection--and many have chosen to 
incorporate TWIC electronic readers into their USCG facility security 
plans. Are you seeing the biometric check being utilized beyond the 
category facilities that will be subject to USCG Final Rule?
    Answer. Again, this does not apply to Amtrak at the current time. 
Amtrak has not had any experiences in this area to share with the 
Committee.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Cory Booker to 
                              Neil Trugman
    Question. The Federal Government has a vital role in ensuring that 
freight flow is not inhibited by a lack of security resources. In order 
for our ports to perform efficiently, U.S. Customs and Border 
Protection (CBP) must be adequately funded and staffed. In 2015, when 
CBP was last funded to hire additional staff, only 20 of 2,000 staff 
were assigned to seaports. In addition to the obvious implications for 
homeland security, this is also a supply chain problem. When vessels 
cannot efficiently move through the customs process, the delays can 
ripple throughout our Nation's supply chain. Although there is no 
single solution to port congestion, the gap in Federal investment is an 
issue that we have the ability to address. What can Congress do to 
better match resources with the need to secure our supply chain?
    Answer. Seaport and port supply chain security are not areas where 
the Amtrak Police Department has typical duties and responsibilities. 
The Amtrak Intercity Passenger Rail system does not intersect with 
vessel and shipping related security issues as it does with other modes 
of surface transportation like commuter rail and busses. However, the 
Amtrak Police Department does collaborate and address security issues 
with the USCG, state and local agencies with regard to Amtrak's 
critical infrastructure in or over waterways like railroad bridges and 
buttresses. Solid working relationships are maintained with these law 
enforcement agencies and security matters are coordinated.
    Generally, Amtrak agrees with the premise that more funding of 
maritime security programs, like more funding of surface transportation 
programs, is essential to improving America's homeland defense and must 
be a key ingredient to maintaining and creating programs to prevent all 
hazards events, including criminal and terrorist acts.
                                 ______
                                 
     Response to Written Question Submitted by Hon. John Thune to 
                              Chris Spear
    Question. Mr. Spears, there has been a lot of discussion of the 
TWIC program. I hear the program has progressed, but I am interested in 
your thoughts. Is the TWIC program providing the verifications you need 
and how would you like to see the program changed?
    Answer. ATA continues to support the concept of a single, 
federally-issued credential for transportation workers to satisfy 
multiple security threat assessment (STA) requirements. The TWIC is a 
robust, standardized credential that, when paired with appropriate card 
readers, has the potential to serve as a valuable and effective tool to 
enhance the security of our ports and other critical infrastructure. 
Unfortunately, drivers with TWIC cards are still subjected to multiple, 
identical STAs to obtain separate credentials in order to access other 
highly secure facilities and haul hazardous materials. This has 
resulted in the costly and inefficient environment that motor carriers 
and drivers operate in today. So long as there is no one single, 
universally-accepted credential, the full potential of the TWIC cannot 
be realized.
    Under the law, TSA may only perform STAs for a TWIC card on workers 
``engaged in the field of transportation''. Recently, TSA amended its 
legal interpretation of ``field of transportation'' to cover ``any 
individual, activity, entity, facility, owner, or operator that is 
subject to regulation by TSA, Department of Transportation, or the U.S. 
Coast Guard, and individuals applying for trusted traveler programs.'' 
\1\ ATA supports this new interpretation which will greatly expand the 
number of individuals in the coming years who apply and pay for a STA 
and TWIC card. As more TWIC cards are issued, the establishment of the 
TWIC as the single, national, uniform credential becomes more critical 
in order to reduce inefficiencies and lift the burden of undergoing 
duplicative background checks and obtaining multiple credentials.
---------------------------------------------------------------------------
    \1\ 81 Federal Register No. 188; 66671-66672; https://www.gpo.gov/
fdsys/pkg/FR-2016-09-28/pdf/2016-23370.pdf
---------------------------------------------------------------------------
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Deb Fischer to 
                              Chris Spear
    Question 1. Mr. Spear, what type of policies would a Security 
Threat Assessment include, in your opinion? In addition to a single 
credentialing system, what other policies would streamline the security 
process without degrading our security?
    Answer. Currently, the Security Threat Assessment associated with 
the TWIC and HME requires a FBI criminal history records check, a check 
against the Terrorist Screening Database, proof of citizenship or 
immigration status, and proof of identity. As far as the industry is 
concerned, these checks are sufficient in determining whether an 
individual poses a threat to national security.
    Although a single credentialing process would maximize efficiency 
while maintaining security, there are other ways to streamline the 
process. The first would be better communication. The Department of 
Homeland Security was created by the Homeland Security Act of 2002. 
This Act brought 22 Federal agencies underneath this new cabinet level 
department. We believe the department has worked through a number of 
early concerns, but the industry still faces the situation of being 
faced with a number of agencies regulating security.
    If a driver is screened for a TWIC card, that screening should work 
for an HME. The background check information used for that screening 
should not be different, if that driver wanted to apply for TSA 
precheck, for personal travel. Should there be a reason that a TSA 
officer does not recognize that the TWIC can be used to board an 
airplane? The agencies should coordinate their efforts, to minimize 
overlap and reduce customer frustration. The ability to immediately 
verify an applicant has been cleared and does not pose a security risk 
to the Pipelines and Hazardous Materials Administration, should allow 
for an expedited clearance with the Federal Aviation Administration. 
Those databases should be able to communicate with one another.
    Record keeping is another concern when it comes to streamlining the 
process. Every five years a new set of fingerprints must be taken to 
receive a TWIC. According to the Department of Homeland Security 
Privacy Impact Assessment for the Transportation Worker's 
Identification Credential,\2\ biometric records are retained on an 
individual while they remain an active TWIC card holder. Upon 
expiration of the TWIC, those records are destroyed. ATA believes that 
if that individual would like to continue to transport commodities to 
port facilities and renew their TWIC, the records should not be 
destroyed but be retained for the length of the renewal.
---------------------------------------------------------------------------
    \2\ U.S. Department of Homeland Security. Privacy Impact Assessment 
for the Transportation Workers Identification Credential Program, Oct. 
5, 2007. Available at: https://www.dhs.gov/xlibrary/assets/privacy/
privacy_pia_twic09.pdf

    Question 2. You mentioned in your written testimony concerns about 
the GAO's recommendations for ``alternative'' credentialing methods, 
including the potential for a decentralized system (whereby each entity 
has its own port security systems). Can you elaborate further on these 
concerns?
    Answer. A decentralized approach would be disastrous from both an 
operational and a cost standpoint. Allowing states and localities or 
individual facilities throughout the country to establish their own STA 
requirements and issue separate credentials could create confusion 
regarding site-specific access requirements, especially for those 
transportation workers who operate at multiple Maritime Transportation 
Security Act (MTSA) regulated facilities. Furthermore, a decentralized 
approach would only add to the costs already imposed on motor carriers 
and drivers today. While establishing additional requirements and 
credentials for access may be a boon for cash-strapped states and 
localities, requiring a driver who holds a valid TWIC card to undergo 
duplicative STAs would waste government resources and create an 
increasingly burdensome and inefficient operating environment without 
enhancing security. For these reasons, ATA continues to support the 
``one credential or screening, many uses'' policy that Congress 
envisioned when creating the TWIC nearly fifteen years ago.

    Question 3. What are your thoughts on the United States Coast 
Guard's (USCG) August 2016 final rule that will require high-risk 
category facilities and a vessel to incorporate an electronic TWIC 
validation process, which includes a biometric check for high-risk 
category facilities and a vessel, prior to entry into a secured area?
    Answer. In the final rule, the Coast Guard only requires ports 
designated as ``Risk A'' facilities to install TWIC readers at access 
points to secure areas. Facilities not designated as ``Risk A'' 
facilities are not required to install readers, but are required to 
continue visually inspecting TWICs. Although ATA and its members 
support the use of such risk-based approaches in developing security 
regulations, in this particular situation, we are concerned about the 
lack of uniformity in implementing TWIC readers throughout all MTSA-
regulated facilities.
    For one, the lack of a uniform access process across MTSA-regulated 
facilities could create delays resulting from uncertainty or 
unfamiliarity with site-specific entry verification and inspection 
processes, especially among commercial drivers who service multiple 
ports during their operations. Secondly, installing TWIC readers at 
additional MTSA-regulated facilities would eliminate the potential for 
subjectivity by personnel visually inspecting TWICs at entry points. 
Since readers to authenticate the card's validity, as well as the 
driver's identity and status, will not be available at over 95 percent 
of MTSA-regulated facilities, the overall security goal of the TWIC 
card is undermined. Finally, motor carriers and commercial drivers have 
invested heavily in applying and paying for what was promised to be a 
high-tech, secure credential designed to be operated in conjunction 
with electronic readers. In reality, however, what they have 
functionally paid for is an expensive ``flash pass,'' since most 
facilities will not have readers installed to make use of the card's 
full potential.
    ATA believes expanding the scope of the requirement to additional 
MTSA-regulated facilities will further our shared goal of protecting 
our Nation's critical transportation infrastructure, reduce confusion 
at port secure entry points, and fulfill the promise of the TWIC card 
program.

    Question 4. The August 2016 TWIC reader rule also states that, 
while not required, a maritime operator can utilize electronic TWIC 
inspection on a voluntary basis if they feel that this provides an 
additional level of security protection--and many have chosen to 
incorporate TWIC electronic readers into their USCG facility security 
plans. Are you seeing the biometric check being utilized beyond the 
category facilities that will be subject to USCG Final Rule?
    Answer. It is encouraging to hear that some operators recognize the 
security and economic benefits that will come from installing TWIC 
readers and have chosen to do so voluntarily. However, without a 
requirement to install the TWIC readers, the vast majority of 
facilities will continue to rely on subjective visual inspections that 
will leave them vulnerable to security threats, undermining the goal of 
the TWIC program and endangering critical infrastructure.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Cory Booker to 
                              Chris Spear
    Question 1. The Federal Government has a vital role in ensuring 
that freight flow is not inhibited by a lack of security resources.
    In order for our ports to perform efficiently, U.S. Customs and 
Border Protection (CBP) must be adequately funded and staffed. In 2015, 
when CBP was last funded to hire additional staff, only 20 of 2,000 
staff were assigned to seaports. In addition to the obvious 
implications for homeland security, this is also a supply chain 
problem. When vessels cannot efficiently move through the customs 
process, the delays can ripple throughout our Nation's supply chain.
    Although there is no single solution to port congestion, the gap in 
Federal investment is an issue that we have the ability to address.
    What can Congress do to better match resources with the need to 
secure our supply chain?
    Answer. First, there is no replacement for adequate investment in 
our Nation's freight infrastructure, including our highways and ports. 
Without it, the issues we face in terms of congestion and security 
concerns will only grow, exacerbating already unacceptable challenges 
for the trucking industry. You are correct that the Federal Government 
has a vital role in ensuring that freight flows are not inhibited by 
lack of resources and we urge the Congress to continue pushing for ways 
to increase investment in our Nation's transportation infrastructure.
    In the current environment of scarce Federal resources and 
heightened security we must utilize the programs we have in place to 
maintain the efficient movement of goods and secure the supply chain. 
The SAFE Port Act of 2006 mandated that all agencies which require 
documentation for the clearing or licensing the importation and 
exportation of cargo to participate in ITDS (International Trade Data 
System).\1\ ATA has long supported the development of ITDS to provide a 
single window for all government agencies to gather data to clear cargo 
entering the U.S. Presidential Executive Order 13659, issued on 
February 2014 established specific guidelines and timelines for all 
impacted government agencies to be ready to launch ITDS by December 
2016. The automated commercial environment (ACE) is the platform 
utilized by ITDS and will eventually become a one stop shop for 
international trade.
---------------------------------------------------------------------------
    \1\ U.S. Customs and Border Protection. International Trade Data 
System: Fact Sheet Available at: https://www.cbp.gov/sites/default/
files/documents/itds_capab_2.pdf
---------------------------------------------------------------------------
    Like many large undertakings, there are unforeseen mishaps and 
delays on implementation. However, no progress has ever been gained 
without setbacks. When ACE/ITDS is fully functional, it will allow for 
enhanced safety and security, by providing visibility to additional 
data and automated communications between government agencies, as well 
as an increase in throughput by harmonization of information of 
international shippers that are utilized by CBP and other PGAs.
    Congress can assist the supply chain community by remaining 
vigilant, holding the agencies accountable for maintaining deadlines, 
and working with industry stakeholders to discover any inefficiencies 
or achievements during the implementation process.

    Question 2. The Transportation Worker Identification Credential--
known as TWIC--is issued by TSA to prevent unauthorized access to ports 
and other maritime facilities. The TWIC program has faced many 
criticisms; including several Government Accountability Office reviews 
that found serious problems with the program that prevented the agency 
from detecting fraud.
    A recent DHS Inspector General report found that similar issues 
still exist with the TWIC program at TSA. For example, the report found 
that fraud detection continues to be an issue and that TWICs may be 
issued even when questionable circumstances exist.
    While the program has faced many criticisms, there have been 
significant security improvements at the ports. Beyond the TWIC 
program, what other actions are critical to securing ports?
    Answer. Operational gridlock caused by systemic port congestion is 
now an all too common occurrence at America's largest port complexes. 
The resulting inefficient, time consuming and costly freight transport 
process also serves to undermine efforts to better secure critical port 
facilities. Until operational data is routinely collected and analyzed 
regarding cargo loading and unloading, terminal gate and truck turn 
times, container processing times, equipment availability etc., port 
and stakeholder management will be unable to modify and improve port 
operational performance. As a result, many key port complexes will 
continue to operate at less than optimum levels and in the resulting 
congestion, confusion and operational delays will continue to operate 
in an environment that undercuts security programs centered on 
maintaining a high degree of situational awareness and watchfulness.
    The 2016 FAST Act included provisions that were intended to 
identify and improve port operational data collection and use under the 
jurisdictional leadership of DOT and the Bureau of Transportation 
Statistics (BTS). Unfortunately, the mandated collaborative efforts of 
the FAST Act's Port Performance Freight Statistics Working Group have 
so far been unable to collect the types of and sufficient data for the 
port operational database which can be used to better analyze and 
modify-manage port activities that creates better value for the public 
and all port stakeholders, including and especially the trucking 
industry. While the Working Group continues to meet, failure to come 
together and develop this database negatively impacts all stakeholders, 
including government officials seeking to address port challenges in a 
government and industry stake holders work together to create this data 
base, congestion and delays will continue in the port freight sector 
and implementation of security programs will never fully be reached.

    Question 3. What role does technology play in improving port 
security?
    Answer. Technology is a critical and essential component to the 
safety and security of all port facilities. With respect to technology, 
port facilities and the trucking industry, TWIC readers are a key 
example of how technology and the trucking industry interact on a daily 
basis in support of security and efficiency at the entrances to many 
port facilities.
    Although, as previously noted in my testimony, TWIC readers are not 
required at every port, many port facilities use hand held and 
stationary TWIC readers as an added layer of security. The TWIC card on 
its own, amounts to a tamper-resistant, biometric and very expensive 
flash pass. Upon entry to a facility, there is only a visual 
verification of the person presenting the credential. In facilities 
that use TWIC readers, there is confirmation that:

  (A)  The person presenting the card is verified by fingerprint 
        analysis;

  (B)  The card is authentic and issued by TSA; and

  (C)  The card has not been revoked or suspended.

    ATA has long supported the use of the TWIC with the enhanced 
technology of the TWIC readers at port facilities to better ensure the 
safety and security of these critical locations to national security.
                                 ______
                                 
     Response to Written Question Submitted by Hon. John Thune to 
                        Anthony Straquadine, Jr.
    Question. Mr. Straquadine, I understand the pipelines have worked 
with TSA to educate their inspectors and that the pipeline industry is 
satisfied with the overall relationship with TSA. Can you speak to what 
is making this relationship successful?
    Answer. The relationship between the pipeline industry and TSA 
began very well. Much of the staff at TSA's Pipeline branch had 
familiarity with the pipeline industry by either having experience at 
NTSB, PHMSA or the pipeline industry itself. Many of the original 
visits by TSA to over 100 facilities were very informative to both the 
industry and TSA personnel. They shared a common goal of increased 
security and resiliency. Performance based goals with real world 
implementations are key to keep the focus on continuous improvement. 
Many of the lessons learned in these assessments were shared in 
combined TSA annual workshops that had significant participation from 
industry security professionals. This allowed not only the visited 
facilities to benefit from the common TSA assessments, but these 
lessons learned being communicated more widely to the industry.
    While there have been reorganizations within the TSA, we have kept 
that cooperative attitude and have welcomed new staff that have a more 
diverse responsibility under the TSA management structure. The pipeline 
industry understands that TSA is working to add additional staff 
specific to this sector and we look forward to continued collaborative 
efforts with the agency.
    Alliance Pipeline has specifically adopted proactive outreach 
efforts to build and maintain our relationship with the TSA. This works 
because it is not an adversarial or regulatory one, but rather, a 
collaborative approach with the agency. This relationship works well as 
we discuss sharing threat information and industry response efforts 
(such as the voluntary Cybersecurity Architecture Review discussed in 
my Subcommittee testimony).
    Alliance Pipeline has also obtained the appropriate level of 
security clearances for key staff to ensure certain classified threat 
information can be shared by TSA on a timely basis. This has resulted 
in ongoing threat related briefings and updates related to our 
industry/region specific threats.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Deb Fischer to 
                        Anthony Straquadine, Jr.
    Question 1. Mr. Straquadine, in your written testimony you 
described another type of security threat to our Nation's pipeline 
system, ``political'' security threats. Can you elaborate on this risk 
and how pipeline operators are working to address this challenge?
    Answer. Congress anticipated that there may be security concerns 
due to threats by outside parties and it directed the Department of 
Transportation--Pipelines and Hazardous Material Safety Administration 
(PHMSA) to develop regulations. This resulted in the establishment of a 
PHMSA regulation addressing injuries or destruction of a pipeline 
facility. In general, PHMSA has regulatory authority over pipeline 
companies, but there are two exceptions in their regulations, which 
include: Excavators who damage a pipeline and the aforementioned 
``political'' security threat activity. The following are PHMSA 
specific penalties:

        Sec. 190.291 Criminal penalties generally.

        (a) Any person who willfully and knowingly violates a provision 
        of 49 U.S.C. 60101 et seq. or any regulation or order issued 
        thereunder will upon conviction be subject to a fine under 
        title 18, United States Code, and imprisonment for not more 
        than five years, or both, for each offense.

        (b) Any person who willfully and knowingly injures or destroys, 
        or attempts to injure or destroy, any interstate transmission 
        facility, any interstate pipeline facility, or any intrastate 
        pipeline facility used in interstate or foreign commerce or in 
        any activity affecting interstate or foreign commerce (as those 
        terms are defined in 49 U.S.C. 60101 et seq.) will, upon 
        conviction, be subject to a fine under title 18, United States 
        Code, imprisonment for a term not to exceed 20 years, or both, 
        for each offense.

        (c) Any person who willfully and knowingly defaces, damages, 
        removes, or destroys any pipeline sign, right-of-way marker, or 
        marine buoy required by 49 U.S.C. 60101 et seq. or any 
        regulation or order issued thereunder will, upon conviction, be 
        subject to a fine under title 18, United States Code, 
        imprisonment for a term not to exceed 1 year, or both, for each 
        offense.

    PHMSA has struggled with these particular enforcement requirements 
for excavators. The TSA which is no longer part of the Department of 
Transportation has no regulatory or enforcement authority. The other 
branches of the Department of Homeland Security (DHS) do not typically 
deal in the enforcement matters. This leads then to the Federal Bureau 
of Investigation (FBI) which has investigative authority, and the 
prosecutorial responsibilities of the Department of Justice (DOJ).
    In recently reported pipeline incidents, clear evidence was 
available about the intended actions (typically documented on social 
media), but it was difficult for the FBI to respond quickly to gather 
the threat related information. While some of this evidence was 
gathered, there was reluctance by the DOJ to move forward on 
indictments based on the PHMSA authority. Rather, the specific pipeline 
companies and local authorities are resorting to local statutes 
concerning criminal trespass.
    The security posture of many critical facilities is founded on a 
deterrence strategy based on enforcement of penalties. Operators, local 
officials and the FBI gather evidence about the potential crimes but 
the enforcement is under the purview of the DOJ.
    What are we doing to help? We are:

  <bullet> Trying to educate disparate parts of the Federal Government 
        as to the problem and assist in cross communication on the 
        issue.

  <bullet> Mobilizing our staff, neighbors, security equipment and 
        consultants to correctly and quickly capture information for 
        these cases.

  <bullet> Trying to understand why there is a reluctance to prosecute 
        these individuals and assist in removing these impediments for 
        Federal agencies.

  <bullet> Coordinating with regulatory agencies to improve warning 
        signs at physical locations to emphasize the severe penalties 
        for uninformed trespassers. (However, this effort does not 
        inhibit informed perpetrators).

    Question 2. The TSA administrator previously testified that the 
agency spends just 3 percent of its budget on surface transportation 
programs. Several of you mentioned the lack of interaction with TSA 
staff in your statements. Can you tell us about your interactions on a 
regular basis with TSA officials and staff? How could Congress improve 
TSA interactions and guidance to surface transportation operators?
    Answer. The pipeline industry supports TSA's efforts to fill open 
management positions related to our industry sector. We have invited 
the TSA to participate in industry tabletop exercises and reviews. Our 
sector has been helping to review potential improvements to the TSA 
Security Guidelines.
    Alliance Pipeline staff with security clearance stay in routine 
contact on the State and Federal level with TSA pipeline security 
personnel and have access to the approved security databases, 
appropriate to our industry. Alliance also supports TSA participation 
in industry related exercises and reviews with TSA pipeline personnel 
in our operating region.

    Question 3. The August 2016 TWIC reader rule also states that, 
while not required, a maritime operator can utilize electronic TWIC 
inspection on a voluntary basis if they feel that this provides an 
additional level of security protection--and many have chosen to 
incorporate TWIC electronic readers into their USCG facility security 
plans. Are you seeing the biometric check being utilized beyond the 
category facilities that will be subject to USCG Final Rule?
    Answer. The U.S. Coast Guard (USCG) initiated this TWIC card 
effort, and while there may be some applicability to overall security 
efforts, the inflexibility and cost of implementing this program seems 
to be inhibiting wider use other than what is specifically mandated by 
the Coast Guard. Applying the TWIC identification system outside of 
USCG facilities seems to be faltering and other solutions that are more 
flexible for more industries (e.g., electric utility industry) seem to 
be gaining traction in a one-stop personnel identification process.
    Alliance Pipeline specifically comments that the TWIC reader 
program is an available security tool for USCG facilities and suggests 
that broad adoption of this program for non-USCG facilities would NOT 
enhance the security for land-based pipeline facilities. The security 
infrastructure, training and company-level enforcement tools needed to 
deploy this program for the pipeline industry as a whole would impose 
an undo resource and financial burden on our industry with little to no 
benefit to our security profile.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Cory Booker to 
                        Anthony Straquadine, Jr.
    Question 1. The Federal Government has a vital role in ensuring 
that freight flow is not inhibited by a lack of security resources.
    In order for our ports to perform efficiently, U.S. Customs and 
Border Protection (CBP) must be adequately funded and staffed. In 2015, 
when CBP was last funded to hire additional staff, only 20 of 2,000 
staff were assigned to seaports. In addition to the obvious 
implications for homeland security, this is also a supply chain 
problem. When vessels cannot efficiently move through the customs 
process, the delays can ripple throughout our Nation's supply chain.
    Although there is no single solution to port congestion, the gap in 
Federal investment is an issue that we have the ability to address.
    What can Congress do to better match resources with the need to 
secure our supply chain?
    Answer. Department of Homeland Security (DHS)--Transportation 
Security Administration (TSA) needs to better match its resource 
allocation to the actual transportation security threats in each 
transportation mode. S. 3379 proposed such threat-analysis budgeting 
for DHS-TSA, and the natural gas pipeline industry would support that 
approach.

    Question 2. As surface transportation assets become increasingly 
automated and reliant on advanced technologies for their safe 
operation, they also become more vulnerable to cyber-based attacks. 
What steps are you taking to ensure that critical infrastructure is 
protected against a cyberattack?
    Answer. Natural gas pipeline systems are operated by using a 
distributed control network topology with oversight from a centralized 
Supervisory Control and Data Acquisition (SCADA) system. The 
independent nodes can operate without the central system operating. 
Within each node there are backup control systems that will maintain 
set points. Safety systems and emergency shutdowns are independent of 
the control systems and are not computer based.
    The physical transportation of natural gas occurs at relatively 
slow speed allowing significant time to respond to changes. Individual 
pipeline operators may also include multiple system redundancies to 
limit or minimize potential impacts associated with cyber threats.
    As discussed during the December 7, 2016 Subcommittee hearing, 
Alliance Pipeline participated in a two-day voluntary Cyber Security 
Architecture Review with members of the Federal Energy Regulatory 
Commission (FERC)--Office of Energy Infrastructure Security (OEIS) and 
DHS-TSA's Office of Security Policy and Industry Engagement. This 
Review was designed to be a collaborative, non-regulatory approach that 
promotes secure and resilient infrastructure through the sharing of 
information and best practices. The goal of the Review was to gain a 
comprehensive understanding of an entity's overall cybersecurity 
posture, to identify potential areas of concern, and to articulate 
actionable recommendations and observations that promote positive 
change to the security posture of the reviewed organization.
    The outcome of this Cybersecurity Architecture Review was well 
received by all parties participating, as Alliance Pipeline received 
numerous best practice recommendations offered by OEIS and DHS-TSA. 
Alliance is working to implement recommendations that have been 
prioritized to ensure ongoing safe and efficient cybersecurity 
operations. Alliance dedicates attention, expertise and resources to 
reinforcing and maintaining its cybersecurity measures on a continuing 
basis.

    Question 3. What communication or coordination, if any, have you 
had with Federal agencies to assist in the prevention of a cyberattack?
    Answer. The primary information interface for the natural gas 
pipeline industry is with the DHS--Industrial Control Systems Cyber 
Emergency Response Team (ICS-CERT). ICS-CERT's mission is to guide a 
cohesive effort between government and industry to improve the 
cybersecurity posture of control systems within the Nation's critical 
infrastructure. ICS-CERT assists control systems vendors and asset 
owners/operators to identify security vulnerabilities and develop sound 
mitigation strategies that strengthen their cybersecurity posture and 
reduce risk. They work to reduce risks within and across all critical 
infrastructure sectors by partnering with law enforcement agencies and 
the intelligence community and coordinating efforts among federal, 
state, local, and tribal governments and control systems owners, 
operators, and vendors. Additionally, ICS-CERT collaborates with 
international and private sector Computer Emergency Response Teams 
(CERTs) to share control systems-related security incidents and 
mitigation measures. https://ics-cert.us-cert.gov/About-Industrial-
Control-Systems-Cyber-Emergency-Response-Team
    ICS-CERT partners with members of the control systems community to 
help develop and vet recommended practices, provide guidance in support 
of ICS-CERT incident response capability, and participate in leadership 
working groups to ensure the community's cybersecurity concerns are 
considered in our products and deliverables.
    ICS-CERT facilitates discussions between the Federal Government and 
the control systems vendor community, establishing relationships that 
foster a collaborative environment in which to address common control 
systems cybersecurity issues. ICS-CERT is also developing a suite of 
tools, which will provide asset owners and operators with the ability 
to measure the security posture of their control systems environments 
and to identify the appropriate cybersecurity mitigation measures they 
should implement.
    The natural gas pipeline industry has multiple communication 
interfaces with both the ICS-CERT and the TSA. Specific incident 
reporting interface for our industry is via TSA Transportation Security 
Operations Center (TSOC) and FBI. The TSOC serves as TSA's coordination 
center for transportation security incidents and operations.
    Coordination within industry is also handled via Information 
Sharing and Analysis Centers (ISACs). In December 2016, the Interstate 
Natural Gas Association of America announced that its industry sector 
had joined the Downstream Natural Gas Information Sharing and Analysis 
Center as part of a continuing effort to enhance the security of its 
members' physical assets and cyber networks. The Federal Government 
promotes ISACs and Information Sharing and Analysis Organizations 
(ISAOs) as a best security practice. They serve as a platform for 
sharing cyber and physical threat intelligence, incident information, 
analytics and tools. Critical infrastructure sectors use ISACs to share 
comprehensive analysis within the sector, with other sectors and with 
Federal and state governments. More than a dozen ISACs exist in the 
United States, covering a wide range of industry sectors, including 
electric, nuclear, financial, telecommunications, information 
technology and water. The American Gas Association formed the DNG-ISAC 
in 2014. The DNG-ISAC helps local natural gas utilities and natural gas 
pipelines throughout the Nation share and access timely, accurate and 
relevant threat information as part of their commitment to the safe and 
reliable delivery of natural gas to the more than 177 million Americans 
who rely on it to meet their daily needs. The DNG-ISAC works closely 
with other energy-related ISACs. http://www.ingaa.org/News/
PressReleases/31333
.aspx
    In addition to the industry actions referenced above, Alliance 
Pipeline is committed to maintaining its proactive and collaborative 
approach with both FERC OEIS and TSA staff related to the recently 
completed Cybersecurity Architecture Review. Alliance continues to 
maintain an open dialogue with both FERC OEIS and TSA on this topic to 
reinforce the actions taken as an outcome of this review and to share 
best practices.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Deb Fischer to 
                              Tom Belfiore
    Question 1. Mr. Belfiore, I appreciate the multi-layered approach 
for port security that you outlined in your testimony.
    As it relates to technology, how has that strengthened your ability 
to ensure security in the recent past? What are some of the challenges 
or risks associated with expanding security technology at ports? Does 
that increase, for example, the risk of cyberattacks?
    Answer. We consider security technology at all of our facilities as 
a force multiplier, supplementing and at times replacing the need for 
deployment of human assets. Technology allows for the effective, 
efficient, and secure movement of cargo through our ports.
    In recent years at our port facilities, we have greatly expanded 
our network of CCTV cameras. The Port Authority also created a 
``trusted trucker'' program known as SEALINK, where we capture data and 
enroll trucking companies and their drivers to ensure only those having 
actual business at our ports may enter.
    Additionally, to assist with large-scale evacuations of the port, 
we have deployed a port-wide siren and public address system, variable 
message signage for evacuation notification, and highway advisory radio 
to notify truckers.
    The challenge to technology we find most is the cost of ownership. 
Beyond the initial capital outlay, it is important that funds be 
allocated for continued maintenance and recurrent operator training 
over the long term. Cyber-attacks of course are a risk to any 
technology system, but one that we believe can be largely mitigated 
through an effective cyber defense program. The heavy reliance of the 
maritime industry on electronic data transmission systems dictates the 
need for strong and effective cybersecurity.

    Question 2. Many have advocated for TWIC to serve as a one stop 
shop for security credentialing. What do you think of this proposal for 
other types of infrastructure, such as airports where the Port 
Authority uses the Secure Identification Display Area program?
    Answer. While a singular security credential across multiple modes 
of transportation is seemingly attractive, we believe the TWIC program 
would first need to be strengthened (as noted in the DHS IG's report) 
and reconciled with the SIDA program before it serves as a replacement 
to SIDA. There are several significant differences between the TWIC 
program and the SIDA program that would need to be addressed. For 
example, CFR 1542 governing airport credentials has a more extensive 
list of disqualifying crimes. Further, the airport credential lookback 
period for offenses is 10 years while TWIC appears to be 7 years.
    Most importantly, the granting of a SIDA credential takes place on-
airport by Port Authority security staff with the analysis of 
identification documents and criminal history records checks performed 
by the same staff. The level of scrutiny afforded each applicant we 
believe is superior to that which would be provided at a Federal TWIC 
office.

    Question 3. What are your thoughts on the United States Coast 
Guard's (USCG) August 2016 final rule that will require high-risk 
category facilities and a vessel to incorporate an electronic TWIC 
validation process, which includes a biometric check for high-risk 
category facilities and a vessel, prior to entry into a secured area?
    Answer. We support the USCG effort to require an electronic TWIC 
validation process and biometric check for entry into the Nation's 
high-risk category facilities. We are pleased that the USCG followed a 
risk-based model in assessing the need for these enhancements rather 
than a ``one size fits all'' approach.

    Question 4. The August 2016 TWIC reader rule also states that, 
while not required, a maritime operator can utilize electronic TWIC 
inspection on a voluntary basis if they feel that this provides an 
additional level of security protection--and many have chosen to 
incorporate TWIC electronic readers into their USCG facility security 
plans. Are you seeing the biometric check being utilized beyond the 
category facilities that will be subject to USCG Final Rule?
    Answer. The areas of our port facilities for which the Port 
Authority has direct security responsibility do not fall into the high-
risk category. Nevertheless, we are evaluating the prospect of 
procuring handheld TWIC biometric readers (similar to those already in 
use at our airports) for randomized use in our areas and at times where 
we may assume an elevated security posture.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Cory Booker to 
                              Tom Belfiore
    Question 1. The Federal Government has a vital role in ensuring 
that freight flow is not inhibited by a lack of security resources.
    In order for our ports to perform efficiently, U.S. Customs and 
Border Protection (CBP) must be adequately funded and staffed. In 2015, 
when CBP was last funded to hire additional staff, only 20 of 2,000 
staff were assigned to seaports. In addition to the obvious 
implications for homeland security, this is also a supply chain 
problem. When vessels cannot efficiently move through the customs 
process, the delays can ripple throughout our Nation's supply chain.
    Although there is no single solution to port congestion, the gap in 
Federal investment is an issue that we have the ability to address.
    What can Congress do to better match resources with the need to 
secure our supply chain?
    Answer. U.S. Customs and Border Protection (CBP) has been very 
creative in trying to manage their expansive mission with limited 
resources. Most recently, CBP launched a program wherein certain 
trusted vessels can begin cargo operations before the vessel is 
officially cleared by CBP. This simple measure ensures that the 
efficiency of the supply chain is unimpeded by insufficient resources 
and we applaud CBP for taking those steps. In a similar fashion, CBP's 
innovative Reimbursable Services Program authorized under Section 481 
under the Homeland Security Act of 2002 and amended by the Cross-Border 
Trade Enhancement Act of 2016 allows for private sector partners to pay 
for the cost of CBP resources on overtime to ensure that the supply 
chains can continue to flow uninterrupted. While this is an excellent 
stop gap measure that can be used in extraordinary situations, it is 
not sustainable for either the private sector or CBP.
    In the Port of New York and New Jersey, the expectation is that 
when the Bayonne Bridge Navigation Clearance Project is completed later 
this year, the container terminal operators will need to expand their 
hours of operation on a regular basis in order to efficiently handle 
the surges of cargo that are anticipated. While the CBP Port Director 
and her staff have been extraordinary partners in working with the port 
community to address anomalies, they simply do not have sufficient 
resources assigned to the Port to handle longer hours on a sustainable 
basis to operate the Non-Intrusive Inspection equipment and scan 100 
percent of the containers. A few options that Congress may consider are 
as follows:

  <bullet> Better allocate the existing and any additional resources 
        based on risk--not just security risk but also economic risk. 
        The container terminals in the Ports of Los Angeles and Long 
        Beach for example are open up to 20 hours a day, 6 days a week, 
        with full CBP staffing, while our terminals are currently open 
        between 8-12 hours a day five days a week. This will put the 
        PONYNJ at a competitive disadvantage in the future.

  <bullet> Considering the volume of containers that move thru the 
        Radiation Portal Monitors (RPMs) each day and the manpower 
        required to operate them as compared to the relatively low 
        number of alarms that occur, investigate ways to remotely 
        monitor the RPMs and respond to any alarms with a roving 
        ``strike team.''

  <bullet> Evaluate alternative locations for where the radiation 
        scanning could take place. While some studies have been done to 
        evaluate spreader bar mounted radiation detection so that the 
        containers are scanned during the normal handling process, it 
        is not clear what the status of those studies are or why they 
        have not been further developed. CBP should also consider other 
        choke points for where the RPMs could be placed so that each 
        terminal doesn't have to have its own dedicated equipment and 
        manpower.

    Question 2. The Transportation Worker Identification Credential--
known as TWIC--is issued by TSA to prevent unauthorized access to ports 
and other maritime facilities. The TWIC program has faced many 
criticisms; including several Government Accountability Office reviews 
that found serious problems with the program that prevented the agency 
from detecting fraud.
    A recent DHS Inspector General report found that similar issues 
still exist with the TWIC program at TSA. For example, the report found 
that fraud detection continues to be an issue and that TWICs may be 
issued even when questionable circumstances exist.
    While the program has faced many criticisms, there have been 
significant security improvements at the ports. Beyond the TWIC 
program, what other actions are critical to securing ports?
    Answer. Significant security improvements have been made over the 
last 15 years at our Nation's ports, and specifically within the Port 
of New York and New Jersey. The successful ability to achieve effective 
port security has been based on the development and deployment of a 
layered system of measures that has integrated capabilities of 
governments and commercial interests in port areas across the various 
elements:

  <bullet> national maritime security (securing and monitoring 
        international sea/shipping lanes, and port entry areas)

  <bullet> vessels/shipping (vessel security plans, safety and security 
        boardings and inspections)

  <bullet> maritime facilities/port terminals (facility security plans, 
        outfitting and securing, safety & security inspections, drills 
        and exercise)

  <bullet> cargo (screening, scanning, inspections and securing)

  <bullet> personnel/terminal workers/truckers (background checks, 
        credentialing, training)

  <bullet> intermodal mobility within and to and from port facilities 
        (securing, training, inspections, drills and exercises)

    Continued funding of the Port Security Grant program at proper 
levels allows for the diverse and complimentary physical security 
measures to securing our ports and the over-arching maritime 
transportation system.

    Question 3. What role does technology play in improving port 
security?
    Answer. We consider security technology at all of our facilities as 
a force multiplier, supplementing and at times replacing the need for 
deployment of human assets. Technology allows for the effective, 
efficient, and secure movement of cargo through our ports.
    In recent years at our port facilities, we have greatly expanded 
our network of CCTV cameras. The Port Authority also created a 
``trusted trucker'' program known as SEALINK, where we capture data and 
enroll trucking companies and their drivers to ensure only those having 
actual business at our ports may enter. Additionally, to assist with 
large-scale evacuations of the port, we have deployed a port-wide siren 
and public address system, variable message signage for evacuation 
notification, and highway advisory radio to notify truckers.
    The challenge to technology we find most is the cost of ownership. 
Beyond the initial capital outlay, it is important that funds be 
allocated for continued maintenance and recurrent operator training 
over the long term.

    Question 4. As surface transportation assets become increasingly 
automated and reliant on advanced technologies for their safe 
operation, they also become more vulnerable to cyber-based attacks. 
What steps are you taking to ensure that critical infrastructure is 
protected against a cyberattack?
    Answer. Cyberattacks, of course, are a risk to any technology 
system, but one that we believe can be largely mitigated through an 
effective cyber defense program. The heavy reliance of the maritime 
industry on electronic data transmission systems dictates the need for 
strong and effective cybersecurity. A few years ago, the Port Authority 
launched a comprehensive cybersecurity program based on the Federal 
NIST 800-53 standards and deployed additional cyber defense tools, 
increased employee awareness and training, and has set out to implement 
proper computing controls on all of its' critical systems.

    Question 5. What communication or coordination, if any, have you 
had with Federal agencies to assist in the prevention of a cyberattack?
    Answer. The Port Authority receives cybersecurity alerts from the 
DHS Industrial Control Systems Cyber Emergency Response Team (ICS-
CERT), DHS United States Computer Emergency Readiness Team (US-CERT), 
U.S. Secret Service, and DHS National Cybersecurity and Communications 
Integration, and the FBI. We also frequently meet with the FBI, U.S. 
Secret Service (quarterly), and DHS National Cybersecurity and 
Communications Integration Center (monthly) to discuss Cybersecurity 
related concerns. These entities also communicate to the agency via the 
Port Authority Police Department members who are assigned to the JTTF.

                                  <all>

                  This page intentionally left blank.






      
</pre></body></html>
